<html>
<title> - RUNWAY SAFETY: AN UPDATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        RUNWAY SAFETY: AN UPDATE 

=======================================================================

                               (110-174)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 25, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-363 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
MAZIE K. HIRONO, Hawaii              VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
JASON ALTMIRE, Pennsylvania            (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)










                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Crites, James M., Executive Vice President for Operations, 
  Dallas/Fort Worth International Airport........................     5
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     5
Forrey, Patrick, President, National Air Traffic Controllers 
  Association....................................................     5
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration, accompanied by 
  Wes Timmons, National Director of Runway Safety, Federal 
  Aviation Administration........................................     5
Prater, Captain John, President, Air Line Pilots Association, 
  International..................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    51
Carnahan, Hon. Russ, of Missouri.................................    52
Costello, Hon. Jerry F., of Illinois.............................    53
Mitchell, Hon. Harry E., of Arizona..............................    59
Oberstar, Hon. James L., of Minnesota............................    60
Richardson, Hon. Laura A., of California.........................    64

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Crites, James M..................................................    68
Dillingham, Dr. Gerald...........................................   137
Forrey, Patrick..................................................   173
Krakowski, Hank..................................................   190
Prater, Captain John.............................................   205

                       SUBMISSIONS FOR THE RECORD

Crites, James M., Executive Vice President for Operations, 
  Dallas/Fort Worth International Airport, ``Dallas/Fort Worth 
  International Airport Perimeter Taxiway Demonstration,'' Karen 
  Buondonno and Kimberlea Price, July 2003.......................    77
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration:

  Insert for the record..........................................    15
  Insert for the record..........................................    17
  Insert for the record..........................................    19
  Insert for the record..........................................    29
  Insert for the record..........................................    35
  Insert for the record..........................................    44
  Responses to questions from Rep. Costello......................   202
  Responses to questions from Rep. Dent..........................   203
  Responses to questions from Rep. Hall..........................   204

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  HEARING ON RUNWAY SAFETY: AN UPDATE

                              ----------                              


                     Thursday, September 25, 2008,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff, and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on 
Runway Safety: An Update. I will give a brief opening 
statement, call on the Ranking Member, Mr. Petri, to give 
remarks or his opening statement, and then hopefully we will go 
directly to our witnesses.
    I welcome everyone here today to our hearing on Runway 
Safety: An Update. Runway safety continues to be an aviation 
safety concern, appearing on the National Transportation Safety 
Board's Most Wanted List since the list was created in 1990. 
While we will hear today that the United States has the safest 
air transportation system in the world, we cannot become 
complacent about our safety. One accident or near accident is 
one too many.
    According to the General Accountability Office, the overall 
rate for runway incursions for the first three quarters of 2008 
has increased slightly compared to 2007. That, in conjunction 
with three near misses within three weeks over the summer, at 
two of our busiest airports and one last Friday at Lehigh 
Valley International Airport, causes me and I think everyone 
else concern, especially with operations decreasing almost 
three percent in the first six months of 2008 compared with 
2007, according to the FAA.
    At our February 2008 hearing on runway safety, I requested 
quarterly reports from the FAA on runway safety to ensure this 
issue remains at the top of the FAA's agenda. Further, while I 
am pleased that the FAA has filled its Runway Safety Office 
Director position after nearly two years being vacant, and that 
they have taken many of the recommendations from the GAO, we 
still need to have an update on the FAA's plans to improve 
runway safety.
    The GAO also cites human factors, such as controller 
fatigue and miscommunication, as factors in runway safety, and 
I am interested in hearing more from the panelists, including 
Mr. Pat Forrey, the President of the National Air Traffic 
Controller Association, on this issue.
    As our June 2008 hearing demonstrated, we have a controller 
staffing shortage and the FAA has been slow to acknowledge the 
problem or find a solution. As a result, controllers are being 
asked to work longer hours to handle increasingly congested 
runways and airspace. And, according to the GAO, by 2011, up to 
50 percent of the controller workforce will have less than five 
years experience, which could affect runway safety.
    The near miss this last Friday clearly demonstrates how 
staffing has an effect on safety. According to some reports, 
the Lehigh Valley International Airport near miss was a result 
of an inexperienced controller or trainee allowing both 
aircraft on the same runway. Those planes missed each other by 
about 10 feet. I am interested in hearing both from Mr. 
Krakowski and Mr. Forrey concerning that particular near miss.
    I am also interested in learning more about the 
implementation and use of technology such as the airport 
surface detection equipment model ASDE-X, runway safety lights 
and low-cost surveillance systems. I am pleased that the 
Dallas/Fort Worth Airport is here to give us their perspective 
on these technologies.
    While the House of Representatives provided $42 million for 
runway incursion reduction programs, $74 million for runway 
status light acquisition and installation, and required the FAA 
to submit a runway safety plan that includes a road map for the 
installation and deployment of systems to alert controllers and 
flight crews in H.R. 2881, unfortunately, the FAA 
Reauthorization Act that we passed on September 20th of 2007 
containing those provisions and authorizations, the Senate has 
failed to act on that legislation. The Subcommittee will 
continue to provide aggressive oversight on this and other 
issues until these provisions become law.
    As I have stated time and time again, safety must not be 
compromised in an effort to save money or for a lack of 
resources or attention. The FAA and the entire aviation 
community must work together so that we can do better to ensure 
our safety efforts remain on track. The American public 
deserves no less.
    With that, I want to welcome our witnesses here today, and 
I look forward to hearing their testimony. Before I recognize 
Mr. Petri for his opening statement, I ask unanimous consent to 
allow two weeks for all Members to revise and extend their 
remarks, and to permit the submission of additional statements 
and materials by Members and witnesses. Without objection, so 
ordered.
    At this time, the Chair would recognize the distinguished 
Ranking Member of the Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. Let me, first 
of all, thank you and actually the Chairman of this Full 
Committee for having scheduled in this Subcommittee and I think 
in some of the other Subcommittees an aggressive schedule of 
safety oversight on different aspects of transportation. It is 
an important subject and one that certainly our involvement in 
can help keep in the forefront of everyone involved in the 
safety system. It is clear we can have zero accidents and zero 
mistakes if we just close down transportation, so that is not 
the answer. The problem is to figure out how to take 
intelligent risks and also to minimize mistakes and 
opportunities for human error and all the rest.
    This hearing is another occasion to help us learn more 
about what we can do and what is being contemplated to do an 
even better job of managing this wonderful system of mobility 
that we have in the United States, air mobility and all the 
rest, in as responsible a fashion as possible.
    I certainly would like to thank the witnesses for appearing 
before the Subcommittee to provide an update on runway safety 
initiatives and on the ongoing efforts to decrease runway 
incursions. Though work, as has been pointed out, currently in 
the safest period in aviation history, as long as humans fly 
aircraft--and even if they are replaced by machines, which is 
no longer beyond the possibility--as long as aircraft fly, 
there will always be the potential for mechanical failure and 
for human error and for accidents. But the FAA, this 
Subcommittee, and the entire aviation community are responsible 
for ensuring that the U.S. has the safest national airspace 
system possible.
    A recent Government Accountability Office report on runway 
incursions and runway and ramp safety found that while the rate 
for the most serious category of runway incursions is down from 
last year, 24 events out of 61 million aircraft operations, 
there was an anomalous--at least we hope it was an anomalous--
up-tick in total runway incursions in the first quarter of this 
year. Therefore, we must remain vigilant in our oversight of 
this issue.
    I am looking forward to hearing about the steps that 
airports, pilots, controllers, and the FAA are taking to 
mitigate the risk of these potentially deadly runway 
incursions. Clearly, there is no silver bullet to eliminate all 
runway incursions, but I believe that there are many ways to 
address runway safety, and I am interested in hearing about the 
many technologies currently deployed or under development to 
reduce incursions.
    During our hearing in February, the FAA discussed several 
technologies, such as runway status lights, low-cost surface 
surveillance, that would have the potential to drastically 
reduce the number of runway incursions. I am interested in 
hearing about the progress of testing and deploying these 
technologies so vital to assisting controllers and pilots 
during critical phases of a flight.
    In addition to technological innovation, I am interested in 
hearing about the bricks and mortar solutions, crushable 
concrete engineered material arresting systems that have been 
installed at 21 airports, improved markings and signage at 
airports and around perimeter taxiway like the ones at 
Atlanta's Airport, where runway crossings have been reduced 
from roughly 640 to less than 100 per day.
    I am interested in hearing about what the witnesses think 
about these strategies and also look forward to hearing about 
the status of the FAA's evaluation of these measures and their 
plan to deploy them.
    It is also important to explore whether the expected drop 
in enplanements will affect the funding streams necessary to 
continue these important projects.
    I would also like to hear an update on the FAA's call to 
action on runway safety. I join the GAO in applauding the FAA 
for making runway safety a priority, but it would be important 
for the agency to keep programs on schedule and to continue to 
maintain the vigilant oversight that we are seeing now.
    Beyond the flashing lights, radar, alerting systems, and 
concrete, it is important we address human factors that affect 
runway safety. Pilot alertness and situational awareness are 
critical to safe flights. Also, we need to get more information 
to pilots. It is important that we strike a balance that does 
not overload or distract them.
    Although the National Transportation Safety Board has not 
cited controller fatigue as a factor causing any of the runway 
incursions that they have investigated, including the tragic 
accident in Lexington, Kentucky, some have cited controller 
fatigue as an area of concern, and I am certainly interested in 
hearing about these concerns, as well as plans to address them.
    As with all safety issues, it is critical that this 
discussion be based on facts. We must be cautious, when 
discussing safety, to avoid confusing emotion with real safety 
concerns. Both labor and management must build a cooperative 
and collaborative relationship to achieve the safety benefits 
that we are seeking, and I am concerned that the combative 
posture employed by both sides will only lead to trouble.
    The number if enplanements has dropped since last year, but 
serious runway incursions have persisted, which indicates that 
the risk of runway incursions has not yet been completely 
addressed, and it will take everyone's continued effort and 
cooperation to get us to the goal.
    I appreciate all of our witnesses' efforts to address this 
important safety issue and I look forward to your testimony and 
thank you for being here today.
    Mr. Costello. The Chair thanks the Ranking Member and now 
will recognize the witnesses. Mr. Hank Krakowski, who is the 
Chief Operating Officer of the Air Traffic Control 
Organization, Federal Aviation Administration. He is 
accompanied by Mr. Wes Timmons, who will not be offering 
testimony, but who will be accompanying Mr. Krakowski for 
questions. Mr. Timmons is the National Director of Runway 
Safety, Federal Aviation Administration.
    Dr. Gerald Dillingham, who has testified before our 
Subcommittee more times than he probably likes, but he has been 
here many times and I think has done an outstanding job. He is 
the Director of the Physical Infrastructure Issues with the 
U.S. Government Accountability Office. Mr. Patrick Forrey, who 
is the President of the National Air Traffic Controllers 
Association; Mr. John Prater, who is the President of the Air 
Line Pilots Association, International; and Mr. James Crites, 
who is the Executive Vice President for Operations, Dallas/Fort 
Worth International Airport.
    Gentlemen, we, as you know, have a five minute rule. We 
will recognize you. We would ask you to summarize your 
testimony. Your entire statement will appear in the record.
    The Chair now recognizes Mr. Krakowski.

   TESTIMONY OF HANK KRAKOWSKI, CHIEF OPERATING OFFICER, AIR 
    TRAFFIC ORGANIZATION, FEDERAL AVIATION ADMINISTRATION, 
ACCOMPANIED BY WES TIMMONS, NATIONAL DIRECTOR OF RUNWAY SAFETY, 
    FEDERAL AVIATION ADMINISTRATION; DR. GERALD DILLINGHAM, 
   DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
ACCOUNTABILITY OFFICE; PATRICK FORREY, PRESIDENT, NATIONAL AIR 
     TRAFFIC CONTROLLERS ASSOCIATION; CAPTAIN JOHN PRATER, 
  PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; AND 
   JAMES M. CRITES, EXECUTIVE VICE PRESIDENT FOR OPERATIONS, 
            DALLAS/FORT WORTH INTERNATIONAL AIRPORT

    Mr. Krakowski. Good morning, Mr. Chairman, Ranking Member 
Petri. It is good to be here and see everybody again. Thank you 
for this testimony to update you on the efforts since we last 
met in February.
    With me today is Wes Timmons, and what is important about 
Wes being here is that Wes is bringing leadership and stability 
as he continues to build up the runway safety office. I am 
happy to report that we have made solid progress since February 
and I am confident that our strategies will continue to reduce 
risk.
    Just a reminder that at the beginning of fiscal year 2008 
the FAA did adopt a new ICAO standard, which is more risk-
inclusive. Therefore, year over year, from last year, you will 
see more events reported, because we were not reporting less 
serious events. I think that actually adds to the risk 
assessment.
    Of course, Category A incursions are the most serious 
incidents, in which a collision is narrowly avoided; Category B 
are ones when you have a separation decrease, where there is a 
significant potential for a collision; and, of course, Category 
C and D are the serious events.
    If the chart can be brought up, either electronically or--
--
    Mr. Costello. There it is.
    Mr. Krakowski. Very good. Thank you.
    I would like to just draw your attention to that. I recall 
being here last February, Mr. Chairman, and the concern that 
you had, and we had as well, is if you look at the gray line, 
which is the lower line on this chart, you can see that last 
year, which is what that line represents, the serious 
incursions were beginning to increase in early summer, and, as 
we entered the fall period, they continued to increase at an 
alarming rate.
    Given the rate of increase that we were seeing, we had to 
do something to arrest that change, and what we did is, through 
the Call to Action, through very specific things that the 
Acting Administrator did in January to refocus this effort, we 
intended to put a tourniquet on that rate of change, and I 
think you can clearly see that we did arrest the increase, and 
we have settled the situation down.
    Now, this year we still have 24 events, which is equal to 
what we had last year. The event in Allentown was categorized 
as an A, so we are 24 for 24. I would like to remind you that 
the 2007 24 event figure represents the safest we ever had, so 
we are at least on par with that. Obviously, we are not 
sanguine with that type of statistic; we are still having 
serious events going on.
    The event in Allentown was a human factors issue, and one 
of the things we try to do is mitigate human factors through 
the use of technology as a safety net. ASDE-X is now being 
deployed in 17 towers. Sixteen additional towers are scheduled 
to be operational by the end of October 2010; two more in 2011. 
Runway status lights, which has clearly shown safety benefit, 
are scheduled to be installed at 22 airports beyond the ones we 
have in Dallas and San Diego. We have also initiated memoranda 
of understanding at 18 airports for runway status lights 
configuration and construction.
    Based on our evaluations in Spokane of low-cost ground 
surveillance system, we have issued a request for proposal 
across industry to offer low-cost alternatives for those 
airports who do not have the funding mechanisms or the traffic 
density for ASDE-X deployment. Several offers are currently 
under review and we expect to complete those evaluations in the 
next few months.
    We also sent, over this year, our Runway Safety Action Team 
to 20 of our busiest airports. These visits identified common 
sense opportunities for curbing runway incursion, such as new 
improved signage, markings, driver training, and airport 
training. We identified a second tier of 22 airports to visit, 
and we completed the analysis in July.
    As part of the Administrator's Call to Action last year, 
the FAA required 75 of the largest airports to enhance airport 
markings by June of this year, and they have completed those. 
We have also completed rulemaking requiring enhanced markings 
at all part 139 airports by 2010.
    Now, we can do everything right, but we still have human 
factors issues to tackle.
    At the last hearing, I disclosed our intention to work with 
NATCA to implement ATSAP, the non-punitive voluntary reporting 
system for our traffic controllers. The ATSAP demonstration is 
now up and running at all the Chicago facilities, and we are 
gathering valuable safety information regarding events and 
incidents that previously have gone unreported. We intend to 
expand this program beyond Chicago once the program is proven.
    One major component, as you mentioned, was fatigue. The FAA 
recently had a Fatigue Seminar and we do have a number of 
follow-ups in the works right now to look at controller 
schedules, particularly time off between shifts and how much 
time is needed after working a midnight shift.
    We also are going to start the Runway Safety Council this 
fall, which we committed to, and we want to thank ALPA, NBAA, 
AOPA, all the user groups and communities, for working with us 
this year to give us the success that we showed in the chart.
    Mr. Chairman, as you said, constant pressure is needed. I 
personally appreciate the pressure that this Committee gives on 
us to keep us to stay focused. Thank you.
    Mr. Costello. I thank you, Mr. Krakowski.
    The Chair now recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Chairman Costello, Mr. Petri. My 
testimony this morning focuses on actions FAA has taken to 
reduce runway incursions since we testified on this issue 
before you last February. I will also identify some further 
actions we think should be undertaken.
    With regard to the actions of last year, we agree with Mr. 
Krakowski, FAA has given a higher priority to improving 
aviation safety. For example, it is establishing a Runway 
Safety Council to analyze the root cause of serious incursions, 
and it has continued to deploy and test new technologies, 
conduct runway safety airport reviews, and issue new air 
traffic procedures. FAA has also begun testing a voluntary 
safety reporting program for air traffic controllers. Many of 
the FAA initiatives are responsive to the recommendations that 
we made to the agency.
    Mr. Chairman, despite these actions, the risk of runway 
collision is still high. The number of serious incursions is 
about the same, or the same now, this year, as it was last 
year. In both years, a third of the serious incursions involved 
a commercial aircraft. Moreover, the rate for incursions in all 
categories of severity increased by 10 percent. Using the ICAO 
definition of incursions that it recently adopted, FAA has 
counted nearly 1,000 incursions during fiscal year 2008. Most 
of these incursions involved a general aviation aircraft. These 
statistics do not include incursions that may have occurred at 
non-towered airports.
    The primary causes of incursions are human factors issues, 
such as fatigue, miscommunication between pilots and air 
traffic controllers, and loss of situation awareness on the 
airfield by pilots. Going forward, air traffic controllers may 
need to be a particular focus because FAA is hiring large 
numbers of controllers, and the ratio of new hires to veterans 
is increasing. Newly certified controllers will have much less 
exposure to potential incursions and, therefore, may be less 
efficient in mitigating them. Any loss in efficiency could 
negatively affect runway safety.
    Now, Mr. Chairman, I would like to briefly discuss some 
additional actions we think need to be undertaken.
    First, FAA and other stakeholders must give sustained 
attention to runway safety, even if the number and rate of 
incidents decline.
    Second, FAA's emphasis on serious incursions should not 
detract attention from less serious incursions. Serious 
incursions are only the tip of the iceberg. Less serious 
incursions can lead to more serious incursions. Therefore, the 
entire scope of incidents should be part of the search for 
solutions.
    Third, FAA and the airlines could further improve runway 
safety by addressing human factors issues such as fatigue, 
expediting the deployment of technologies, and increasing 
training for pilots and air traffic controllers.
    Finally, some version of the House FAA reauthorization bill 
would provide more than $100 million for runway safety 
initiatives.
    Mr. Chairman and Members of the Subcommittee, by 2025, air 
traffic is projected to double or even triple. That could 
equate to 100,000 to 150,000 flights each day, significantly 
increasing the risk of incursions. The efforts that are 
underway today by FAA, controllers, and pilots are very 
promising, but must be sustained to meet the challenges of 
today and enhanced to meet the challenges on the horizon.
    Thank you, sir.
    Mr. Costello. Thank you, Dr. Dillingham.
    The Chair now recognizes Mr. Forrey.
    Mr. Forrey. Thank you, Chairman Costello, Ranking Member 
Petri for the opportunity to testify today. Let me again thank 
you for your leadership on FAA reauthorization and express my 
deep disappointment that the Senate failed to pass their own 
bill, thus ignoring the current demise of the NAS and 
neglecting the needed infrastructure improvements for a safe 
and efficient airspace system.
    Last Friday, I received news from Allentown, Pennsylvania. 
A Cessna landing at Lehigh Valley International Airport was 
given instructions to exit the runway, missed its taxiway, and 
was still on the runway when the tower control cleared a Mesa 
Airlines regional jet for takeoff. The two planes came so close 
to collision that the RJ actually had to swerve to avoid the 
Cessna and miss it by 10 feet. There were two employees in the 
tower at the time. Both were trainees.
    On June 10th, there was a runway incursion at New Orleans 
Airport. There were three controllers in the tower at the time, 
all trainees, and the cumulative FAA experience of all three 
was 20 months. Supervising the operation was a controller in 
charge who had been in the agency for a total of all of eight 
months, and there was no supervisor on duty in the tower.
    When I testified before this Committee in February, I 
implored the FAA to ensure the proper staffing of air traffic 
control towers. Working conditions continue to deteriorate and 
experienced controllers are leaving the workforce at an 
alarming rate. Over 3,000 controllers have left in the past 24 
months since the FAA imposed their working payrolls.
    The FAA is so desperate to staff its towers that it must 
rely on untrained and uncertified controllers to work traffic 
without the support of more experienced personnel. This is true 
not only in Allentown and New Orleans, but in some of the 
busiest and most complex facilities in the Nation.
    The FAA has created a perfect storm. Controllers are 
working longer days and weeks, and fewer opportunities for rest 
and recovery. They are working combined positions and given 
more training. Fewer and fewer trainees have the luxury of 
learning from those with years of experience, and they are even 
being trained by other trainees.
    Yet, the FAA refuses to meaningfully address this issue. At 
New Orleans, they fired the probationary controller working 
local control instead of the manager who allowed that situation 
to happen. And the terminal leader's answer to runway safety is 
to order controllers to state I will participate in preventing 
operational errors when they give a relief briefing.
    The agency prefers to offer incentives designed to entice 
controllers to leave one understaffed facility to go work at 
another one. They have created a meaningless staffing standard 
designed to mislead Congress and the flying public into 
believing that no staffing problem exists. These so-called 
standards are based not on scientific evaluation of necessary 
staffing, but on the agency's financial goals.
    Not surprisingly, runway incursions are up this year. 
Whether we compare the old FAA or the new ICAO rules, runway 
incursions are up. The rate of serious Category A and B 
incursions is also up, and operational errors in the terminal 
environment are up as much as 20 percent over last year.
    But the FAA has done very little to substantively improve 
runway safety. In addition to their failure to address the 
staffing crisis, they have not formed local runway incursion 
prevention committees; they have not worked with local 
stakeholders to identify runway incursion hot spots; they have 
no new plans to construct additional end-around taxiways; they 
refuse to work with NATCA on new technology projects and have 
subsequently encountered implementation problems that might 
have been avoided from front-line controllers.
    The only area where there has been any progress is in the 
development of low-cost ground surveillance systems, which may 
prove useful to airports where the installation of the superior 
ASDE-X model type system is not a viable option. It seems that 
only when a near catastrophic incident makes it into the 
evening news does the FAA react, and even then change is 
cosmetic more than substantive.
    This July, there were two well publicized near collisions 
in a one-week span at JFK Airport. Both these incidents were 
caused by unsafe usage of perpendicular runways. Each time, 
controllers were forced to contend with a last second go-around 
incident, which, in this configuration, forces aircraft 
aborting a landing to cross the flight path of a departing 
aircraft, creating a potential for collision.
    NATCA representatives at JFK have been trying for years to 
convince the FAA to change this procedure, but until this 
summer their warnings fell upon deaf ears. Only after hundreds 
of passengers were nearly killed did the FAA finally act and 
discontinue this operation.
    The new rule is a no-brainer for safety; however, it barely 
scratches the surface. The staggering of arrivals and 
departures on these perpendicular runways does nothing to 
address the dangers when they are both being used for arrivals. 
Nor does it address the reciprocal application. It certainly 
fails to address other issues at other airports facing the same 
dangers.
    In Detroit, for example, the FAA's Office of Aviation 
Oversight found that similar operations were not compliant with 
FAA regulations, and the operation had been halted. Yet, 
throughout the Country, similar unsafe operations continue 
unchanged. In Memphis, Boston, Newark, Philadelphia, Las Vegas, 
Washington-Dulles, and Houston, perpendicular runways cause the 
same danger and the FAA refuses to change it.
    Controllers concerned about the safety of the airports 
under their watch are speaking out in the only arena left to 
them: by seeking asylum under the whistleblower protection 
program. The Office of Special Council has issued a letter to 
the Department of Transportation in response to the 
whistleblower findings about unsafe runway operations at 
Memphis and about Newark Airport, saying there is a substantial 
likelihood that conditions at these two airports create a 
substantial and specific danger to public safety. But the FAA 
has dismissed these claims and retaliated against the 
controllers.
    When this panel met six months ago, we discussed serious 
and growing problems in runway safety. The FAA chose to ignore 
the warning signs presented to this Committee and disregard the 
advice offered by panelists. Instead, it has continued the same 
well-trodden FAA path, allowing the safety of the national air 
space system to take a back seat to bottom-line management, and 
their cozy relationship with the private aviation industry, and 
put capacity over safety.
    Thank you for this opportunity to testify.
    Mr. Costello. Thank you, Mr. Forrey.
    Captain Prater?
    Mr. Prater. Good morning, Mr. Chairman, Ranking Member 
Petri. Thank you for the opportunity to provide the 53,000 
pilots that I represent's perspective on runway safety.
    While Government and industry stakeholders have begun a 
number of initiatives and made some improvements in runway 
safety since the last hearing in February, I think we can all 
agree that we can make our runway environments safer.
    Less than a week ago, two of my members rejected a high-
speed takeoff when they saw a small Cessna still on the runway, 
swerving their airliner to avoid a collision in Allentown. 
According to the NTSB, the crew of the airliner estimated that 
they missed the Cessna by as little as 10 feet. I will remind 
that typical takeoff speeds in excess of 175 feet per second, 
200 feet per second are normal, so 10 feet is less than a blink 
of an eye.
    The truth is that any one of us could be on a flight that 
faces a similar threat. And, remember, there are approximately 
60,000 commercial flights in U.S. airspace every day.
    To make sure that the next close call or worse doesn't 
happen, the environments we work in every day have to catch up 
to the 21st century. That is why, today, the Air Line Pilots 
Association will challenge both Government and industry to join 
us in establishing a goal of zero serious runway incursions 
involving commercial airliners. I propose that we focus our 
resources and attention on that goal until it is achieved and 
maintained, before any catastrophic event occurs.
    As you know, technological solutions are available today. 
They include everything from moving map displays in ADS-B to 
runway status lights and digital data link clearances. The 
testing, development, and requirements and actual 
implementation of these solutions are moving at a pace that 
won't speed up without Congress's assistance, especially in the 
already strapped-for-cash airline industry.
    While these technologies hold the most promise for reaching 
our industry reach the eventual goal of zero serious 
incursions, they do little to address it in the near term due 
to funding challenges. But we don't need to sit around and wait 
for technology. There are simple and cost-effective steps that 
can improve runway safety now.
    Airports around the U.S. can help pilots navigate airfields 
better with something as simple as a can of paint. The FAA 
intends to require that all Part 139 airports provide enhanced 
markings by no later than 2010. We would urge the airport 
operators to not wait for a regulation that requires these 
needed markings, but to include them immediately in their next 
facility upgrade plans during the next construction season.
    Airlines can do their part by standardizing operating 
procedures to allow pilots to complete as much heads-down 
activity as possible prior to the taxi phase before takeoff and 
after landing and taxying to the gate. Following the guidance 
in the FAA's advisory circular on standard operating procedures 
for ground operations will reduce pilots' distractions during 
the taxi phase, enabling both of them to focus entirely on 
maintaining situational awareness.
    The runway and taxiway and ramp environment demands two 
sets of eyes scanning for trouble at all times, with both 
pilots monitoring an ATC frequency instead of company radios. 
Using the same words and phrases around the world when 
navigating airfields here at home would help pilots during taxi 
operations as well. ALPA welcomes the FAA's recent adoption of 
the ICAO lineup and wait phraseology and encourages the FAA to 
take it one step further by adopting the ICAO phraseology for 
runway crossings as well. Doing so will reduce the possibility 
of a pilot inadvertently crossing a runway without clearance.
    Let me be clear. I can attest that the potential for 
confusion in airport environment is already inherently high, 
and we shouldn't increase that confusion for foreign flight 
crews operating in the U.S. by using different phrases from 
what they hear elsewhere in the world. ALPA continues to 
communicate directly with our pilots and will expand that to 
other airline pilots through our Hold Sharp for Runway 
Campaign. We have encouraged our pilots to increase their 
vigilance when they are sitting at the controls of their 
airliner on the ground or in the air. We will continue to put 
out newsletters and other interactive tools to keep high focus 
on this very dangerous situation.
    When it comes to airline safety, the bottom line is that 
demanding schedules, inadequate rest periods, and insufficient 
or inaccurate information can degrade the performance of even 
the most seasoned pilot or controller. We operate in complex 
and demanding environments, where the risk for a runway 
incursion is ever-present and growing. All of us must renew our 
commitment to improve safety throughout the operational 
environment. Together, we can make the goal of zero serious 
runway incursions involving commercial airliners a reality. 
Today, I pledge our union will work towards that goal.
    Thank you.
    Mr. Costello. Thank you, Captain Prater.
    Now, the Chair recognizes Mr. Crites.
    Mr. Crites. Chairman Costello, Ranking Member Petri, 
Congressman Johnson, good morning and thank you for inviting me 
to participate in this important hearing. I am Jim Crites, 
Executive Vice President of Operations for the Dallas/Fort 
Worth International Airport. I also serve as the Aviation Group 
Chair for the Transportation Research Board, part of the 
National Academy of Sciences.
    As in security runway safety must be addressed in a multi-
layered approach with numerous checks and balances, at DFW we 
have implemented this very approach through our partnering 
efforts with the FAA, NASA, and our tenant airlines to 
implement the latest technology, as well as deploy low-tech 
improvements to increase and enhance safety.
    Situational awareness is critical to establishing a safe 
runway operating environment. As such, DFW partnered with the 
FAA to successfully test runway status lights. These lights 
provide a real-time visual reference for pilots, air traffic 
controllers, and vehicle operators as to the current status of 
the runway, that is, whether it is safe to make use of the 
runway for either an aircraft departure or runway crossing. I 
find it best to think of this system as traffic lights for 
runways which provide clear, simple to understand, real-time 
visual situational awareness.
    This system has had an immediate and positive effect on 
runway safety. In fact, we believe that the runway status light 
system prevented at least two runway incursions at DFW airport 
in its first year alone. This system has won high praise from 
the entire aviation community and we are grateful for its 
expedited deployment by the FAA.
    Eliminating the need to cross a runway is the ideal 
situation. We have discovered a way to accomplish this while 
simultaneously restoring airport capacity and efficiency, and, 
in so doing, reducing aircraft emissions as well. Perimeter or 
end-around taxiways are now being constructed at high 
operational temp airports after having proven that they can 
accomplish all three goals. DFW, along with its partners, using 
NASA's human-in-the-loop simulation capability, demonstrated 
that the use of perimeter taxiways results in a significant 
reduction in required air traffic controller and pilot 
communications, as well as a 30 percent increase in overall 
capacity at DFW.
    Our first of four perimeter taxiways will become 
operational this year. Once completed, these perimeter taxiways 
are expected to eliminate as many as 1,500 runway crossings per 
day, as well as to save air carriers approximately $100 million 
per year through increased efficiency, while significantly 
reducing aircraft emissions.
    In response to the FAA Administrator's Call to Action 
Safety Summit in the summer of 2007, DFW held a runway safety 
workshop wherein aviation stakeholders at all levels of their 
organizations were invited to participate. Pilots and air 
traffic controllers, along with airport operations personnel 
who work side-by-side in the aircraft movement area, joined 
with senior representatives of the FAA, airport, and airlines. 
Local issue identification and development of creative, 
empowered solutions enabled immediate action on issues of 
concern while simultaneously providing valuable insight for the 
development of long-term solutions.
    The insights gleaned from these workshops and conferences 
not only have resulted in prompt resolution of issues through 
the fielding of low-tech, low-cost physical improvements, such 
as additional signage and markings, but, more importantly, they 
have provided operators with an insight as to how valued they 
and their ideas are, as exemplified by the actions taken by 
their senior management. We believe these efforts have also led 
to a heightened state of vigilance of everyone operating on the 
airfield.
    Concern remains regarding vehicle deviation-induced runway 
incursions, whereby a vehicle operator driving in the aircraft 
movement area will lose track of where they are in relationship 
to an active runway and inadvertently cause an incursion. 
Twenty-nine percent of runway incursions are caused by vehicle 
deviations, most of which we find are due to a loss in 
situational awareness.
    In search of a solution, we have partnered with our local 
FAA representatives, the University of Texas-Arlington, the 
Texas Workforce Commission, and local businesses to explore the 
leveraging of the off-the-shelf technologies which will provide 
visual and audible alerts to vehicle operators who come within 
a defined safety area surrounding a runway. We are discovering 
a wide variety of promising technologies that leverage the use 
of the vehicles' existing onboard systems. In short, we are 
constantly looking at new ideas and are proud to report that we 
have one of the most advanced safety programs in the world.
    In closing, as Chairman of the Aviation Group for the 
Transportation Research Board, I want to express my sincere 
appreciation to this Committee, which helped to create and fund 
the highly effective Airport Cooperative Research Program. We 
are currently entering our fourth year of research aimed at 
finding practical, near-term solutions to the aviation safety, 
security, and environmental challenges facing airports today.
    Again, thank you for the opportunity to participate in this 
hearing. I look forward to responding to your questions.
    Mr. Costello. Thank you, Mr. Crites.
    Dr. Dillingham, on page 12 of your testimony, you say, 
``Despite ongoing efforts, FAA risks not meeting its current 
plans to meet the deployment of ASDE-X by 2010.'' You have 
touched on that in your oral and written testimony. I wonder if 
you might expand upon that and indicate why you have concerns 
that they may not meet their current plans by 2010.
    Mr. Dillingham. Mr. Chairman, I think FAA was able to 
deploy a small number of ASDE systems in the first few years of 
the program. They now have around a dozen that they need to put 
in within the next two years, and just time-wise it doesn't 
seem like it is something that they will be able to accomplish, 
or they would have great difficulty. We talked to FAA about it 
and FAA has a plan whereby they will not be putting these 
systems in one by one, as they did early on, but they will be 
doing them simultaneously so the possibility is there. But 
since so much depends on this, for example, runway safety 
lights are hooked to this system, and until you get the systems 
in you can't get the runway safety lights, which Dallas has 
indicated has been a plus for safety.
    Our concern is that this is a pretty aggressive schedule 
that they have set for themselves.
    Mr. Costello. Mr. Krakowski, if you would comment on the 
schedule and if you feel that you are going to meet the 
schedule by 2010.
    Mr. Krakowski. Indeed, Mr. Chairman. We want an aggressive 
schedule. The situation, as described in this hearing thus far, 
demands that we stretch ourselves and that we try to put as 
much out there as we can. If we miss the goal, it won't be 
because of our intention not to try as hard as we can.
    To Mr. Dillingham's point, when you put these systems out 
early on, you want to do them one by one sequentially, but as 
you get experience and confidence that the system works and you 
have got the bugs worked out, you can actually start ramping up 
multiple deployments. That is how these typically go. So we are 
just trying to pedal as hard as we can, sir.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Costello. And the schedule for the next either fiscal 
year or calendar year, how many do you anticipate will be 
installed?
    Mr. Krakowski. Sir, we have 13 systems now. We are 
anticipating 35 by the end of 2010, sir.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Costello. And you have a schedule?
    Mr. Krakowski. Yes, we do.
    Mr. Costello. How many do you intend to have installed by 
this time next year?
    Mr. Krakowski. I will have to take a look at that and get 
back to you, sir.
    Mr. Costello. Okay.
    Mr. Krakowski. I don't have it at the tip of my tongue.
    Mr. Costello. We would like that information.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Costello. Captain Prater referred to a number of things 
and he said one of the things that can be done immediately is 
airports can assist by just using a can of paint, and gave some 
examples. I wonder, Mr. Crites, if you would comment on 
airports taking the initiative to go forward and do what 
Captain Prater is suggesting.
    Mr. Crites. Today, we are have already deployed or followed 
Captain Prater's guidance and suggestions and we have done 
that. We find airports are leaning forward as a result of the 
Runway Safety Summit of 2007 and I think they are on track 
expediting and putting forward those very basic, fundamental 
things. I would call it maintaining Part 139 compliance 365 
days a year is kind of the call to order, and we are taking 
that very seriously and concur quite a bit with Captain 
Prater's remarks.
    Mr. Costello. We had a discussion, Mr. Krakowski, about 
Allentown, and I think that Mr. Forrey indicated that there 
were two trainees on duty at the time. You were going to look 
into the matter and get back to us. We have not heard from you, 
so I would ask you now to explain what you know about Allentown 
and the near miss that happened there.
    Mr. Krakowski. Yes, sir. In fact, I received the final 
information I was looking for right before the hearing, so I 
apologize for the delay. It is an NTSB investigation, so we are 
trying to be respectful of that process as we go through.
    Mr. Costello. We understand that, but you have to know who 
was in the tower and who wasn't.
    Mr. Krakowski. Indeed. So we did have a very fresh 
developmental controller who was working the traffic at the 
time, who was just certified on position in August. That was 
the controller that was working the traffic. The developmental, 
though, that was the controller in charge actually is a 
transfer in from the Grand Forks tower with over five years of 
experience there, ten months on duty in Allentown, about six 
months as a CIC, controller in charge, duty there. So the 
controller, while being a developmental for all the positions 
in Allentown, actually is a seasoned controller.
    Mr. Costello. I wonder if you would comment, Mr. Forrey.
    Mr. Forrey. Yes. You know, it takes years of experience to 
learn an operation at a particular airport, and the seasoned 
controller that Mr. Krakowski speaks to was five years at, I 
think--what did you say, North Dakota?
    Mr. Krakowski. Grand Forks, yes.
    Mr. Forrey. Grand Forks, but still not certified at the 
facility all the way through. All he was certified in was the 
tower, not the TRACON. So both people that were working that 
tower had very limited experience of working that tower in 
particular.
    Mr. Costello. Were they the only two in the tower at the 
time? Was there a supervisor?
    Mr. Krakowski. Yes, there were actually five people on 
duty. Three of them were on break at the time, sir.
    Mr. Costello. So three of them were on break and the 
trainees were there at the time of the incident.
    Mr. Krakowski. Actually, there were eight on duty. Three 
were on break, the other two were in the radar room. Sorry.
    Mr. Costello. Is that the information you have, Mr. Forrey?
    Mr. Forrey. No, I don't know how many were on duty at the 
time. I do know there were a couple on break, but I think there 
were three working in the tower and five working in the TRACON; 
and the two in the tower were left there, the two trainees were 
left in the tower while the fully certified controllers was on 
break. He just went on break at the time.
    Mr. Costello. Does that concern you, Mr. Krakowski?
    Mr. Krakowski. It does. It does. And to be completely 
candid here, we do want to work with the NTSB to completely 
understand there, but there is a concern here how we ended up 
in that configuration.
    Mr. Costello. And ending up in that configuration, if in 
fact it is the case, is that a violation of your internal 
policies within the FAA?
    Mr. Krakowski. We don't believe it is, sir, because the CIC 
who was in the charge or the developmental who was in charge 
was, again, a seasoned controller, had been checked out in 
those positions up in the tower cap, had the amount of time 
necessary to qualify for the CIC position. So everything that 
we know at this time suggests there was no violation.
    Mr. Costello. I will give you the final comment on this, 
then I have some other questions, Mr. Forrey.
    Mr. Forrey. Well, I guess if we are going to rely on 
regulations all the time, instead of common sense, I guess what 
he says is true. But you don't leave a facility staffed with 
people who have very limited experience in it and leave them 
alone to work the operation. A perfect example of this is 
Charlotte tower. They have an ASDE-X system that is not working 
properly.
    There was one controller working in the tower; it happened 
to be a very experienced controller, thank God. He was redoing 
stuff, the aircraft counts and RNP procedure and we have to 
change that in the FIDO and the flight data processing. The 
aircraft was told to hold short of the runway. He drifted right 
out onto the runway while an aircraft was inbound.
    Had he not looked up, had he not been experienced enough to 
realize that I better double-check this, that would have 
probably been a pancake situation on a runway or a possible 
death of all those people on those two aircraft. But because he 
was experienced, he was able to catch something like that. His 
opinion as if they had an experienced controller up there that 
was limited in control ability of that facility, they might not 
have known better to look up. So I think it is a bad policy to 
have people sitting in a tower that aren't fully certified all 
by themselves.
    Mr. Costello. Let me ask you about New Orleans. In your 
testimony, oral testimony as well, you indicated that there 
were three trainees on duty with no supervisor, and one of the 
trainees was fired, but not the supervisor. I wonder if you 
would elaborate on that.
    Mr. Forrey. I would be happy to expand on that. That 
particular trainee was still in his first year of training, was 
not fully certified in the facility. He had an operational 
error just a couple months prior to that, where he made a 
mistake on a potential runway incursion or an error as well, so 
they had put him on notice that we are going to put you on 
opportunity to demonstrate performance.
    He then had this incident, where this aircraft went over 
the hold short line of the runway. He verified that he went 
over the hold short line and still allowed the aircraft to land 
that was coming onto the runway, so they removed him. So why 
would you leave someone who is on a performance plan in the 
tower as a developmental with other developmentals, instead of 
not being supervised much more closely? So he was removed. 
Maybe it was a good idea; maybe it wasn't.
    But my opinion is the agency, in their reckless abandon, 
put that person in that position, and that is just not the way 
we should be doing business as an agency. We should be making 
sure that these experienced controllers are there to teach 
these inexperienced controllers so they do the job right. There 
is no safety net. They are deteriorating the safety net of the 
system and they think it is okay, and I think that is a huge 
problem.
    Mr. Costello. Well, I have some other questions, but there 
are some other Members that I need to yield to at this time, 
but I will come back for a second round. Before we leave the 
issue of controllers, I think I made clear many times my 
concern. I think the GAO has, as far as staffing levels and the 
fact that the most experienced controllers are leaving, and in 
Dr. Dillingham's report I think he indicates that in the not 
too distant future we are going to be down to having well over 
half of the controllers that are working in the towers and the 
TRACONs with very little experience.
    So with that, Mr. Petri, you are recognized.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Thank all of you, again, for your testimony. Before I ask 
specific questions, you have each had an opportunity, I expect 
either personally or with your office, to review the others' 
testimony and listen to it, and I don't know if there are any 
follow-up comments or anything that anyone on the panel would 
have about anything that another member of the panel said that 
would help us to understand the situation. I certainly would 
give you all an opportunity to do that.
    Mr. Forrey. I think the only thing I would comment on--
because I really haven't seen anyone else's testimony, I will 
just base it on what I heard here today. Certainly, the FAA 
always has a plan, they always have a plan, they always have a 
plan, but they never seem to get it done. So I just would 
caution you that they have some great ideas, but they never 
follow through with those great ideas, and I think that is what 
this Committee should do, is make sure they follow through with 
those plans.
    Mr. Krakowski. May I comment on that? Actually, thank you 
for the compliment that we do have some great ideas. We do 
intend to follow up. That is one of the reasons that I am in 
the job, is that we take this really seriously, what is 
happening here, what the risks are. We are doing a lot of 
things to build up the safety effort within the ATO and we 
intend to stay on task.
    Mr. Petri. I do have a couple of questions. One, we are all 
aware that there is not the happiest labor management 
relationship, at the current time, between the air traffic 
controllers and the agency, for a whole variety of reasons. 
There is no point in getting into that or pointing fingers, but 
I would just be interested in knowing whether that has any 
impact on safety at all or whether it is a totally isolated--
not totally, but basically an isolated or separate issue. I 
don't know if any of you would care to comment on that.
    Mr. Forrey. I would be happy to comment. It permeates 
everything we do. It is a distraction on the job. The fact that 
we argue about staffing all the time because FAA says we have 
enough and we say we don't. We keep bringing these examples out 
to the public of why the staffing is a problem in this agency 
and what danger it is causing to the flying public, and the 
agency just says safety is never compromised, there are no 
problems, we have it under control, we are hiring new people. 
That is great, hire new people, but find a way to keep the 
veterans in place.
    It permeates through everything. It is a distraction for 
our workforce; it is a distraction on what we do. And it goes 
so far more into just the contract issues; it goes into the way 
they are treated. They are disrespected. Our professional 
opinions are not taken into consideration with new technology, 
with procedures. Look at the JFK incident. We have been arguing 
about this at Detroit and JFK and other airports for years, and 
they just disregard us out of hand. And until there is a near 
catastrophe is the only time they are going to change it.
    So the runway safety call to action issue. We were invited 
to that and yet they go on without us on several of the 
committees, without even inviting us to participate, because 
they don't feel they need to. That is the kind of attitude that 
permeates throughout the workforce and it is a huge distraction 
on the safe operation of the system.
    Mr. Petri. But is it really all one-sided or is there blame 
to go around? We have the retention bonus issue and various 
other things that could contribute as well.
    Mr. Forrey. There are all kinds of issues. Is there both 
sides problems? Sure. When you start getting frustrated, people 
start acting up. What else are they going to do? That is why 
they are leaving. This retention bonus thing and that kind of 
stuff does nothing more than divide the workforce even more. 
You have an A scale and a B scale, so now you have people 
trying to do the same for considerably different pay.
    Then you are going to pay someone even more money to go 
from one understaffed facility to work at another understaffed 
facility, and then, therefore, pay someone else to come back to 
the other understaffed facility. What a waste of money. They 
need to fix the system, and they need to fix the system by 
building a system where there creates the incentive for career 
improvement and career progression. They got rid of all that 
when they imposed what they imposed. So that kind of stuff, 
again, like I said, it does everything to inhibit a good 
operation and experience the mood throughout the system and, 
instead, stifles it.
    Mr. Costello. If you would yield, Mr. Petri.
    Mr. Petri. Sure.
    Mr. Costello. Let me just say for the record--I think we 
have said this before, but to remind people and to remind 
Members--when we were in the last session negotiating a 
settlement that we had had high hopes that we could get an 
agreement between the union and the FAA, the FAA said what it 
would take in order to settle this contract and this dispute. 
They gave a dollar figure and they told us--they told Mr. Mica, 
Chairman Oberstar and myself and Mr. Petri--what that dollar 
amount was that it would take, and NATCA said they didn't see 
how they could agree to that.
    But in the final session, when we sat down, NATCA said if 
that is what it takes to get this done, then we will give it, 
and the acting director now, Bobby Sturgell, said, well, there 
are other issues. And that is when I became convinced that the 
Administration did not want a settlement. They laid down 
exactly what they needed. When NATCA agreed to it, we thought 
we had a settlement, and Mr. Sturgell then said, well, there 
are other issues.
    So I think it is important to keep that on the record and I 
think it is important that Members of this Subcommittee 
continue to remain engaged to try and get the Administration. I 
think Mr. Krakowski has at least reached out somewhat to Mr. 
Forrey and to the union, but, frankly, I think we are going to 
have to wait until the results of the November 4th election to 
determine where we are going forward as far as labor issues and 
morale issues within the FAA.
    Thank you, Mr. Petri.
    Mr. Petri. If I can add to that, it is my understanding 
there is an offer pending that goes until September 30th that 
some have valued at some $300 million figure. I don't know how 
they figured that. I don't know if you share that valuation 
number or are intending to do anything between now and 
September 30th about it.
    Mr. Forrey. The FAA's generous offer you are referring to? 
Is that what you are talking about, that generous offer that 
doesn't do anything? Yes, I have rejected it and will continue 
to reject it because it doesn't solve the problem. It is not a 
comprehensive contract that deals with all the other myriad of 
issues that we have to work through. It is just something that 
is not going to do any good. It doesn't meet anyone's needs.
    Mr. Petri. Well, this is a safety hearing. I thought it 
would be interesting to point out that there are aspects to it 
which may heighten and color somewhat the whole subject, and 
that is unfortunate.
    I have a question for Mr. Crites. If you could talk about 
some of the low-tech solutions that you are implementing to 
improve runway safety at airports around the Country and just 
kind of expand on them, both big and small, it would be 
helpful.
    Mr. Crites. Yes, sir. I think the key to it is what I 
indicated in what we learned from the Runway Safety Summit that 
we held at DFW Airport, where we invited in rank and file 
controllers, operators, pilots, and the like to share their 
real world experiences at our airport as to what they were 
encountering. From that, we invited all Members to take tours 
of the airport from the airfield, so you could see it from the 
airfield perspective, so that all parties could understand what 
each other was talking about from a firsthand view. And what 
that led to were things simple as Captain Prater mentioned 
earlier, that is, taking Part 139 certification seriously, 24 
hours a day, 365 days a year. So if there is a signage outage 
or if a sign is blown down, or something needs to be addressed, 
address it then and there. If it is a can of paint that needs 
to be applied to renew some markings, we do that.
    In addition to that, we decided to go forward and all of 
our Surface Movement Guidance systems, our runway guard lights 
and that, we have that on 24 hours a day so as to highlight 
when you are approaching a runway. Things as simple as 
additional non-standard signage for vehicle operators to let 
them know to yield, signs that they are used to on a regular 
road, so that when they see those on an airfield, which they 
are very familiar with, the signs provide them with situational 
awareness.
    In addition to that, you have heard about the hot spot maps 
and things of that nature. What came from the hot spot map at 
DFW Airport and the shared collaboration was the development of 
some standard taxi path routings. If we can circumvent those 
areas that are problematic and that are causing pilots or 
controllers or vehicle operators that much of an issue we will.
    Other types of things such as when there is a runway 
closure for, let's say, an hour for immediate maintenance or 
something of that nature, we place our airport operations 
vehicles down at the end of the runway to visually see and to 
be on the radio traffic for the tower just in case there is a 
miscommunication or something, to be another set of eyes to 
safeguard the operation.
    We also use extensive use of escort vehicles, follow me 
vehicles, things of that nature, so as to say that anyone who 
is not familiar in the airfield at all, to make sure that they 
are safeguarded when they are out there operating.
    So it is a wide variety of things. It is the whole thing, 
but it is a continuous thing, whether it be yearly runway or 
driver certification training, whether it is I Brake for 
Runways campaign. Captain Prater mentioned something they are 
doing for pilots. We have an I Brake for Runways campaign where 
it is a video followed up with training, followed up with the 
bumper stickers for the dashboard of your vehicle and others, 
just to better ensure safety.
    But the largest issue that we have gone after lately is 
what I mentioned in my testimony, and that is this vehicle 
operator-induced runway incursion. Runway status lights are 
wonderful for the pilots, the controllers, and they are on an 
exception basis, so when it is not safe and it is an exception, 
it gets your notice. We have noticed great success with vehicle 
operators familiar with operating on the airfield, picking up 
trash, attending to maintenance issues and that.
    You can get too familiar with your environment and forget 
where you are. So we are starting to work with very low-tech, 
low-cost items to equip a vehicle similar to what we are seeing 
with runway status lights, to help address the 29 percent of 
runway incursions that are caused by vehicles.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentlelady from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    First, I would like to ask Mr. Crites. You indicated that, 
at DFW, FAA, NASA, airlines, pilots, and air traffic 
controllers all meeting to address runway safety and 
efficiency. Who pulled that meeting together?
    Mr. Crites. That was led by the airport, it was a 
partnership of all those entities as well.
    Ms. Johnson. Have you continued to meet or this was one 
meeting?
    Mr. Crites. Indeed. We meet now on a quarterly basis to 
obtain input. The notion is, if the situation changes or the 
players change out there, to go ahead and get their ideas.
    Ms. Johnson. Okay.
    Now, Mr. Krakowski, in your testimony you discuss the 
voluntary reporting program for air traffic controllers, called 
the Air Traffic Safety Action Program, that you began in the 
Chicago area facilities. How long has this program been 
running?
    Mr. Krakowski. Just about a month, month and a half. We 
started at the Midway control tower and moved it to all the 
other facilities. It is a very tricky program to execute 
properly. The airlines have been doing it for about 15 years 
and it takes a lot of both sides or all sides of this to get 
used to how the program will go. But we are pretty happy with 
what we see so far. I am quite pleased, at Chicago Center we 
have over 100 reports right now, which does speak to the fact 
that people are participating, which is exactly what you want.
    In all candor, when I started this position 11 months ago, 
it was clear there was more of a punitive safety culture within 
the ATO. It is my fervent intention to change that. This 
program will be the cornerstone of doing that.
    Ms. Johnson. Mr. Forrey, would you like to comment on this?
    Mr. Forrey. Sure. The ATSAP program, I think, is a good 
program. It needs a lot of work. We are looking at expanding at 
other places, but at this point in time we want to make sure it 
is working properly where we have it, at some facilities where 
there are some fairly good relationships that are taking place. 
In the end, it is going to enhance the safety of the system. It 
is going to be good for my controllers, it is going to be good 
for the system safety, and it will be something we are looking 
for.
    The reason we haven't moved out right now is because of 
what Mr. Krakowski said: we have a punitive safety culture in 
the FAA. Discipline is the name of the game. Fear and 
intimidation is the way you stop people from having errors, and 
it doesn't work real well. So we have to change some of those 
attitudes before we move out and Dallas, unfortunately, and the 
whole Southern Texas area is a problem right now, and we need 
to get out hands around that issue with the management down 
there, in my opinion, anyway, before we move down there with 
the safety program to try and help those facilities out.
    So that is kind of where we are at right now.
    Ms. Johnson. Dr. Dillingham, do you have any insight on 
this program, the effectiveness it might be?
    Mr. Dillingham. Yes, Ms. Johnson. As Mr. Krakowski said, 
the program, as implemented in other areas of aviation, has 
been very effective. I think what Mr. Forrey alluded to is a 
part of the previous discussion about the relationship between 
FAA management and the controllers. As we talked to all 
parties, one of the things that came up was a concern on the 
controllers' part that if in fact they reported, that it could 
in fact turn into a punitive situation. So we agree that it has 
a potentially positive effect on safety. Getting past these 
issues is not going to be easy.
    Ms. Johnson. One last question. Mr. Forrey, you mentioned 
in your testimony about the widespread understaffing as being a 
concern for runway safety. Would you explain that a little 
further?
    Mr. Forrey. Well, I will give you a prime example. The 
agency, right now, is in the process of trying to split certain 
major towers and TRACONs, and leaving standalone towers in 
Memphis and Orlando. They are looking at Miami and Philadelphia 
and other places to do it. What you are going to end up with is 
you are going to end up with inexperienced, very time-limited 
controllers in the towers running those runways, and all the 
experienced controllers are going to move into the TRACONs.
    That is going to create a situation what we just saw in 
Lehigh, up at Allegheny County, and what we saw in New Orleans, 
and what we are seeing all over the Country, where you have 
inexperienced controllers working at these very busy terminal 
facilities and these towers with very little experience, that 
are not fully certified, so they don't even understand the full 
operation. In fact, we have Southern California TRACON we have 
eight incidents of controllers being ordered to work radar 
positions that they are not even certified on.
    So this is a situation that is affecting staffing, because 
you have low staffing or you have controllers working long 
hours on position without breaks, inexperienced controllers, no 
veterans, it is going to create a very unsafe situation at 
these very complex facilities.
    Ms. Johnson. Now, we have been talking about understaffing 
for a long time. What efforts are we putting forth to improve 
that?
    Mr. Forrey. What efforts are we putting forth? Well, we are 
trying to call attention, certainly, to the situation. We have 
been working with this Committee and Chairmans Costello and 
Oberstar to try and make the FAA get back to the table so that 
we can stop the flood of experienced controllers out of the FAA 
and stay and tray these new persons coming in. That is kind of 
what we are doing.
    Ms. Johnson. I should have directed that to Mr. Krakowski.
    Mr. Krakowski. Thank you. First of all, I do want to take 
exception to the split situation down in Orlando and places 
like that. By our estimation, when you split a facility like 
that, what you do is you take the controllers who are working 
there and you reduce their responsibility for more positions, 
so they have fewer positions to be responsible for. That 
creates better currency, it creates better stability within 
that workforce, and we actually think it increases and enhances 
safety.
    The other thing, particularly with Orlando, we actually 
believe that some of the overtime will be reduced as well. So 
we think it is a very good business practice in some 
facilities. So we take these facility by facility, but we 
actually think it has a better effect on the workforce and on 
safety, in our opinion.
    We are hiring almost 2,000 controllers a year right now. 
Right now, we have over 200 more than we need. Now, a lot of 
them are trainees. We have about 25 percent trainees out in the 
system right now. But we are aggressively hiring people. About 
a third of the controllers come from the CTI schools, the air 
traffic control schools; another third from the military; and 
another third from the general population. We have to keep that 
pace up for the age 56 retirements that we have been 
anticipating. We have problems out there in some facilities, 
but, overall, we have enough people. Getting the right people, 
the right experience level will continue to challenge us for 
the next year or two.
    Ms. Johnson. Thank you very much. My time has expired.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, and thank you for 
conducting this very important hearing on runway safety. I 
happen to represent Lehigh Valley International Airport, call 
letters ABE. I have flown in and out of that airport on many, 
many occasions. As has been discussed, there was a very serious 
near collision or incursion that occurred just a few days ago.
    I guess my main question would be to Mr. Krakowski. I 
assume that this incident would be categorized as the most 
severe type of runway incursion. Would that be a fair 
statement?
    Mr. Krakowski. Without question. In fact, we did the 
severity analysis yesterday, and it was a Category A, which is 
the most serious.
    Mr. Dent. Thank you. A few other things, too. I know that 
the GAO did a runway safety project report in November 2007. 
They concluded that the FAA National Runway Safety Plan was out 
of date and uncoordinated. I have also noticed, too, that the 
FAA has deployed technology and has tested new technology, 
including technology deployed at, I think, 39 airports to allow 
air traffic controllers to identify aircraft on the ground, and 
of those 22 with runway status lights. Forty-two airports were 
selected based on their incursion data to receive safety 
reviews and improved signage and markings were installed.
    Did LVIA receive any of this technology that was referred 
to?
    Mr. Krakowski. I will have to look directly. In fact, I 
just flew there myself. I do remember seeing the enhanced 
markings, but let me get back to you on that. Certainly, the 
really big, busy airports had the highest level of attention, 
and we will check into that and get back to you.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Krakowski. On the issue of the Runway Safety Plan, when 
I walked into the position 11 months ago, Wes Timmons here, the 
Director of Runway Safety, was just entering the job. It was a 
position that was unfilled for over two years, and the position 
and the effort of runway safety lacked stability and 
leadership. Wes expects to have the revised document, the 
updated document out next month; it is under review right now.
    Mr. Dent. As I understand the incident in Allentown, there 
were three controllers who were on break at the time of the 
incident, and I believe a controller supervisor determines who 
is on duty at what time, meaning that someone in the tower made 
the decision to have the two developmentals--or trainees, 
depending on your perspective--on duty in the tower at the same 
time. I guess that is the question I have. Who determined that 
the trainees or the developmentals would be staffing a control 
tower at the same time?
    Mr. Krakowski. Typically, it is the supervisor or the 
operating manager at the time. The NTSB is looking at this as 
they do their investigation. It is an area of concern to us as 
well, so we will be working with them to sort out why this 
happened and what issues we need to address.
    Mr. Dent. Mr. Forrey, do you have any comments that you 
would like to make at this time with respect to the incident in 
Allentown? I think you have talked a little bit about it, but 
further elaborate?
    Mr. Forrey. Just very briefly. You asked about the 
technology or the equipment, the radar on the ground and stuff 
like that. There is no ground radar at Allentown. They may have 
runway markings, but I am not even sure of that. That is one of 
those third-tier facilities that the agency doesn't really put 
a whole lot of effort into, unfortunately. I believe the 
staffing is pretty good there.
    As we see, there were a few people on break, but, again, 
the supervisor--and I don't even know if one was on duty that 
night--was supposed to be the one rotating controllers to 
positions and that left a developmental, who, by the way, was 
also in charge of that tower. So it is not a good situation, in 
our opinion.
    Mr. Dent. I have been in that tower, actually, and I just 
was curious about the incident itself, the fact that the Cessna 
missed its exit and then the commercial jet was permitted to 
take off. The sight lines aren't that great. I was just curious 
if somebody would comment on that. Could the commercial jet see 
the Cessna that was still on the runway, even if was given 
clearance to take off?
    Mr. Forrey. Cessnas are a pretty small profile, and you 
have got to understand he is 3,000 or 4,000 feet down the 
runway. He probably thought he was off when he got the 
clearance. But the significant point here is the controller, 
who had very little experience, knew--the pilot said I did not 
stop short of the runway, and he looked in the binoculars and 
saw that the front wheel gear did not go over the line, but the 
nose was sticking out into the runway.
    Because he didn't have any experience, okay, he didn't 
cross the runway threshold line or the hold short line, I am 
going to go ahead and clear that guy to land. An experienced 
controller would not have done that, they would have made that 
aircraft go around. That is the basic issue here because 
experienced and inexperienced.
    Mr. Dent. I guess anyone who wants to answer, what is the 
lesson learned from the incident at LVIA?
    Mr. Krakowski. Well, if I may, the NTSB has control of the 
investigation. I think you asked a very good question about the 
conspicuousness of the light aircraft and whether the lights on 
the aircraft were visible enough. They are fairly dim on some 
aircraft, and where they were relative to the control tower, I 
think that the sighting issue is certainly a valid thing for 
NTSB to look at, so we will look at all of this.
    Typically, these types of incidents aren't just one thing--
a controller error, a pilot error, a technological error--it is 
usually a chain of events, and that is what we have to really 
look at with this incident.
    Mr. Dent. Mr. Forrey, do you want to make a further 
comment?
    Mr. Forrey. I lost my train of thought when Hank started 
talking, but the bottom line is the inexperience of that 
controller to clear someone on, that is a problem. You have to 
have experienced controllers working with new trainees all the 
time. You cannot leave people that are partially certified to 
work by themselves in operations. It should be a no thing. But 
the problem is they don't have enough veterans to do it.
    Mr. Dent. Thank you. I see my time has expired.
    Mr. Costello. If I can ask for a clarification on a couple 
of points concerning this incident. One, Mr. Krakowski, we all 
understand the NTSB has an investigation going on which will 
last for many, many months, but there are some things we do 
know. We know how many people were in the tower; we know the 
level of their experience. A couple of things that I am 
confused on that I would like to have clarified, number one, is 
the communication between the pilot in the Cessna and the air 
traffic controller. What was the communication, the last 
communication? Mr. Forrey, and then Mr. Krakowski.
    Mr. Forrey. The controller cleared the Cessna to depart off 
of a taxiway, probably a high speed taxiway. After that had 
happened--well, when he got to the taxiway, the pilot of the 
Cessna said I missed it.
    Mr. Costello. He told the controller that?
    Mr. Forrey. He told the tower he missed it and he went 
down. The issue at hand is the aircraft was cleared to depart. 
I don't think I am mixing two incidents up. The aircraft was 
cleared to depart when he thought that aircraft had actually 
gotten off the taxiway at that point in time, but he did not.
    Mr. Costello. The regional jet was cleared to depart?
    Mr. Forrey. Because he thought that the Cessna had gotten 
off the runway at that time.
    Mr. Costello. And isn't it the controller's responsibility, 
before that controller clears, in this case, the regional jet, 
to know exactly where that Cessna is?
    Mr. Forrey. He needs to ensure where that Cessna is at. And 
I did make a mistake earlier with the one going over the 
threshold, that was at the New Orleans Airport, that is where 
that incident was.
    Mr. Costello. Mr. Krakowski?
    Mr. Krakowski. Our understanding of the sequence of events, 
which, again, the NTSB will clarify as they do this, is that 
the controller thought the aircraft had cleared the runway, 
cleared the RJ for takeoff, the regional jet, and after the 
regional jet began the takeoff roll, the Cessna pilot reported 
that he missed the taxiway. The regional jet was already under 
power when that occurred, so the controller instructed the 
Cessna to exit the runway immediately, and it was that delay 
which caused the event to get as close as it did.
    Mr. Costello. So, again, just for clarification here, there 
may be a number of factors, but in this case, if the Cessna was 
still on the runway, the controller should have known exactly 
where that Cessna was before he gave clearance for the regional 
jet to take off.
    Mr. Krakowski. Mr. Chairman, there is no dispute that 
controllers should not clear airplanes for takeoff unless they 
are absolutely assured that the runway is clear.
    Mr. Costello. So we know if in fact he did in this case, it 
was controller error. There may have been other factors, but we 
know that that controller erred if he cleared the regional jet 
to take off, if in fact he did so when the Cessna was on the 
runway.
    Mr. Krakowski. The current evidence is pointing that 
direction. We will let the NTSB do their work.
    Mr. Costello. Let me ask, as far as disciplinary action, 
has any disciplinary action been taken? I realize this was last 
Friday, but either against the trainee or against the 
supervisor in charge?
    Mr. Krakowski. My understanding is the controller was 
decertified, which is a standard practice in a situation like 
that, with a return to work plan that will have to be developed 
after all the complete understandings are----
    Mr. Costello. That was the trainee or the supervisor?
    Mr. Krakowski. The trainee, sir.
    Mr. Costello. And the supervisor?
    Mr. Krakowski. Supervisor, I don't have that information.
    Mr. Costello. Okay. But if in fact two trainees were in the 
tower at the time and there was no supervisor there at the 
time, doesn't that concern you, that your supervisor was on 
break and not in the tower?
    Mr. Krakowski. Mr. Chairman, I think we just have to, once 
again, remember that the other developmental controller--and 
these are people who are certified to work traffic alone, they 
are. When you certify in a position----
    Mr. Costello. They are not fully certified.
    Mr. Krakowski. They are not fully certified in all 
positions, but the positions that they were working in the 
control tower were fully certified. The controller in charge 
was over a five-year veteran, transfer in, had ten months in 
the facility already, six months already doing controller-in-
charge duty. That is not necessarily an unusual situation, but 
we have some work to do to understand this whole picture, sir.
    Mr. Costello. Mr. Forrey?
    Mr. Forrey. You know, when I checked out as a controller, 
as a CPC, I didn't know everything. I barely knew anything, 
just to keep my head above water. It is invaluable to not have 
an experienced controller to help you learn your task and your 
profession as you go, even though you certify and them deem you 
safe, because you make mistakes and you make bad judgment 
calls. It is just invaluable to have an experienced controller 
on duty all the time with trainees.
    Mr. Costello. The Chair now recognizes the gentlelady from 
California, Ms. Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    Mr.. Krakowski, how successful has the Airport Movement 
Area Safety System been since its implementation? It is my 
understanding that the system is currently located at 34 
airports. Have there been any incidents of severe runway 
incursions at those locations?
    Mr. Krakowski. The AMASS system is kind of one of the 
earlier iterations of the Runway Safety Systems. The ASDE-X 
ones that are going to be deployed going forward are the much 
more sophisticated, much more robust systems. So, for a while, 
we will have those legacy systems, but they have served good 
purposes. I can recall, in Atlanta, we had an event where an 
aircraft began to cross the runway, it alerted exactly like it 
should have. For the most part, the system works. I can 
remember events in Denver where snow plows were crossing 
runways and alerted appropriately. But, again, they don't have 
the predictive capability as the new systems do, so we are 
looking forward to getting the new systems out there.
    Ms. Richardson. Okay. In your testimony, sir, it says that 
we had only--I want to reiterate--we had only 23 serious runway 
incursions as of September 15, a full year, 2008 as compared to 
24 last year. That is not good news to me.
    Mr. Krakowski. No, it is not good news. Quite frankly, that 
word shouldn't have been there; it is inappropriate.
    Ms. Richardson. Absolutely, I would agree. My last question 
is about the status of the lights at the 22 major airports. We, 
right now, this Country, are going through a very serious 
financial situation--gas prices, of course, airlines. Everyone 
has issues. You know that we all fly, most of us two times a 
week. I have been on planes where they are telling us to put 
the shades down so they can turn the motor off so they don't 
have to run the air. I mean, every one is obviously doing at 
the bare bones of what they can do.
    What assurance does this Committee have that the 
implementation and the actual distribution and putting in these 
lights as promised is going to happen, the cockpit information? 
How do we know that, given the next crisis tomorrow, that you 
guy aren't going to put this on the shelf and say, hey, we 
don't have enough money, we can't do this?
    Mr. Krakowski. Well, I certainly hope that we don't find 
ourselves in that situation. These programs----
    Ms. Richardson. Well, we cannot find ourselves in that 
situation.
    Mr. Krakowski. I don't disagree with that. When you start 
to put these systems in airports, you have got to tear up 
runways and put taxiway lights in and all kinds of new 
technology. So when you commit to programs like this and you 
actually start working with them, you actually have a pretty 
good feeling that they will be reliably funded before you 
actually start doing the work.
    Perhaps Mr. Crites from Dallas could shed some light from 
the airport perspective on that.
    But we feel confident with the announcements that we have 
made for the acceleration of this technology that we have the 
money to get that done.
    Ms. Richardson. Have you provided to this Committee a list 
of these 22 airports when the installations are supposed to 
occur?
    Mr. Krakowski. I believe it was in the GAO report, but we 
will make sure you get that.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Richardson. And will you be tracking that to ensure we 
meet it?
    Mr. Krakowski. Always do.
    Ms. Richardson. Okay.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Arkansas, Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    Dr. Dillingham, has the FAA seen improvement on false 
targets problems noted in the beginning of the ASDE-X 
deployment program? In November I believe you cited Atlanta and 
Seattle as problem spots. Has the FAA addressed the issues at 
these busy airports and does the agency appear to be learning 
lessons from those early deployments?
    Mr. Dillingham. Thank you for the question. Yes, in 
preparation for this hearing, we checked to see how things had 
developed at both of those airports, and in both cases we found 
that there was a reduction of over 80 percent of the false 
alerts at both of those airports. We have not been able to 
determine to what extent things have changed with the 
subsequent installations of that technology, but we would 
assume that the lessons learned from Seattle and so forth would 
in fact be carried forth with the subsequent installations.
    Mr. Boozman. Thank you very much.
    Captain Prater, could you describe the ATSAP program that 
pilots use to report mistakes to the FAA? How has the program 
helped to address safety issues facing the aviation community 
compared to the period before the program existed? How do you 
evaluate the Air Traffic Safety Action Program the FAA is 
piloting in Chicago for controllers?
    Mr. Prater. First of all, we have had quite a bit of varied 
reports on our ATSAP programs. At the airlines where the 
cooperation between the FAA, management, and the union 
representatives have been high and have been based on safety, 
it has been excellent. It has removed the threat of discipline 
to the point that pilots readily come in, and other employees, 
to report things before they happen, things that they saw.
    I will just give you one quick case. When I flew in on 
Monday, the crew told me that they had been on duty for four 
days in a row; they had been on their 16th hour of on duty, and 
they landed without clearance. After they cleared the runway, 
they realized they had touched down without traffic control. 
They turned themselves in and reported all of the factors that 
went into that air so that it would try to be caught.
    Other places where discipline is the rule of the day, or 
even litigation against the union--it goes to Congressman 
Petri's concern about labor management relations--where labor 
management relations are bad, you see an effect on safety. 
While we try, every tries to split it, the fact is we are all 
human beings. So where there is bad labor management relations, 
there will be an impact on safety.
    At the FAA, we have pushed very hard for our partners, both 
the FAA management, as well as our brothers and sisters at 
NATCA, to try this because we believe very much that the more 
information that is out there, the better. On the other hand, 
you are not going to turn yourself the second time if you get 
beat across the knuckles or fired for turning yourself in the 
first time. So that is what we have to break.
    Mr. Boozman. That is good to know.
    Mr. Chairman, I had the opportunity to visit the new bridge 
that had failed in Minneapolis, and that bridge was completed 
in a year, versus the regular nine or ten years. But one of the 
things that they felt like made the difference was getting rid 
of the adversarial relationships that we see often with OSHA 
and this and that. Instead of it being an adversarial 
relationship, they actually came out on the job in a proactive 
manner and said, guys, you need to be doing this and that. So 
it is good to hear that this is also working in this regard. 
Certainly, those things don't cost money, they save money, and 
hopefully that is something we, as a Committee, can continue to 
push forward.
    Thank you very much.
    Mr. Costello. I thank the gentleman and assure you that we 
will continue to do that.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    I am not sure if this should be directed to Mr. Krakowski 
or to Mr. Timmons, but whoever feels more comfortable fielding 
it, please. I am from Memphis and there are several issues in 
Memphis, but the most current is a whistleblower discussed the 
problems with, he believes, the landing patterns there. I 
believe one of the runways is perpendicular to the other three.
    Mr. Krakowski, can you assure me that that system is safe 
and that we won't be seeing a story in the paper that has a 
crash in Memphis and goes back to this close call that we had 
where USA Today highlighted that problem and said that it was a 
concern and a safety factor?
    Mr. Krakowski. Sure. I will ask Mr. Timmons to add any 
comments he would like to as well, but the CRDA program and the 
procedures we have in place at Memphis evolved over the past 
few years out of some safety concerns that we judged were 
legitimate, and we put the technology of CRDA in place. We 
think it works. We believe it works. We have deemed it safe and 
continue to believe so. We think we have some people in Memphis 
who don't agree with that and will work with the IG's office to 
make sure that they understand our point of view on this. But 
we believe it is safe, sir.
    Wes, do you have any comments?
    Mr. Cohen. Do either FedEx and Northwest/Delta concur? Do 
they have any concerns?
    Mr. Krakowski. They have not raised any to me.
    Mr. Cohen. Okay. And you are familiar with Mr. Nesbitt, who 
is the gentleman that is the ``whistleblower''--and I guess he 
is a whistleblower--who said he witnessed this twin turbo prop 
approaching Runway 27, the crossing runway when a DC-9 was on 
approach to the left and the pilot informed they were going 
around to an unsafe gear indication and that, I think, made 
people aware of the possible problem? Are you aware of that?
    Mr. Krakowski. If I may, I think when we think about a 
future so we don't have events actually drive us into action, I 
think of these programs like the ATSAP program we were talking 
about, because under those programs people are able to give us 
data to bring these problems up to light before events actually 
happen. That is the whole purpose of them.
    So it is our intention, with the new Runway Safety Office, 
with the new leadership within the safety organization, to make 
sure that we are constantly evaluating what is going on there 
not just from a technological performance point of view, but 
with the people actually working the traffic as well.
    Mr. Cohen. Do you know who Mr. Scott Block is?
    Mr. Krakowski. Yes, sir.
    Mr. Cohen. I have a note here that Special Counsel Block 
said in three letters to Transportation Secretary Mary Peters 
that the FAA did not adequately respond to complaints from air 
traffic controllers about the potential for collisions 
involving planes taking off and landing on intersecting runways 
at airports in Memphis and Newark. Do you have a comment on Mr. 
Block's allegation?
    Mr. Krakowski. Those are fairly recent letters to the 
Secretary. We actually disagree with his premise. We will be 
going through the process to respond to him through the 
Secretary's office.
    Mr. Cohen. Thank you. And I don't mean to necessarily 
convey any opinion on the issue, I am concerned, as I think we 
all are--I know we all are--about safety, and Memphis prides 
itself on being a transportation center. Our airport is very 
important to us and certainly our citizens' lives are.
    The air traffic controllers have expressed a concern to me 
about decoupling, and they believe if we decouple Memphis, that 
there will be a danger to safety. I met with some of your 
people and they were with the air traffic controllers, and the 
gentleman who came down was most helpful. We talked about some 
people may be having the ability to know both the tower and 
dual capabilities in case they needed such a person.
    Do you believe there are any possibilities that what the 
air traffic controllers are saying is accurate, that this could 
be a safety hazard if we decouple the tower?
    Mr. Krakowski. We have talked with them extensively through 
this process, not just at Memphis, but at Orlando, West Palm 
Beach, Miami, places like that. We believe this actually 
enhances safety because we are asking controllers to be 
qualified on fewer positions, which increases their currency, 
familiarity with less complexity.
    Mr. Cohen. Is it accurate that in other areas--I think they 
mentioned Palm Beach and Philadelphia--that you held possibly 
because of safety concerns?
    Mr. Krakowski. We held off because the local management 
teams were able to work together with the union to find some 
interesting compromises of sectorization. That doesn't work at 
Memphis because the facilities are so physically split, versus 
the other locations where they are very, very close and you can 
actually work traffic better between----
    Mr. Cohen. Mr. Chairman, can I have another 30 seconds?
    Mr. Costello. Sure.
    Mr. Cohen. Thank you.
    Mr. Forrey, do the air traffic controllers have a proposal 
they can bring to the FAA to possibly have a situation in 
Memphis that would be similar to Philadelphia and Palm Beach 
and to make this thing work?
    Mr. Forrey. Not only do they have a proposal, they have 
given it without a response from the agency. And I just want to 
make one thing clear, because it was stated earlier. Orlando, 
Memphis, Philadelphia, Miami are safer operations, cost less 
per operations than all the other facilities the agency split 
already. When you split that facility, it is going to require 
more controllers to work the tower and more controllers to work 
the approach control than they have right now at a combined 
facility. It is called economy of scale, when you have them 
together; you can now move people up and down, in and out, 
wherever you need them to go.
    When you split it apart, you are going to have the less 
experienced people working the tower only than the ones working 
in the TRACON. Now you are going to have an experience where 
these people don't understand what it is to clear aircraft into 
a tower controller and a tower controller clearing one out to 
an approach controller. It is an inefficient operation that is 
going to cause more controllers to be needed and it is 
``unsafer.'' It truly is unsafer. And that is the FAA's 
statistics, not mine.
    Mr. Cohen. Mr. Chairman, would it be possible for you and/
or one of your more senior staff people to possibly work with 
Mr. Krakowski and Mr. Forrey to see if there is some way that 
we can protect the flying public in this situation?
    Mr. Costello. We have in the past and we will continue to, 
yes.
    Mr. Cohen. Thank you, Mr. Chairman.
    And thank you, gentlemen.
    Mr. Costello. Mr. Forrey, you indicate in your testimony, 
in both oral and written, about the Runway Safety Council and 
that NATCA has been, I guess, invited and included in the 
Runway Safety Council. Elaborate for me. What has your 
participation been and what role do you have?
    Mr. Forrey. One of the premises of the agency and one of 
the things that Hank has brought--and that is a good thing--is 
the safety management system to the FAA. It is a worldwide 
thing through the ICAO. We are all for it, but we want to be a 
stakeholder in the process, and the problem is the agency is 
conducting safety management panels throughout the Country on 
changing in procedures, changing in equipment, and they are not 
including NATCA or the controllers in that process as a 
stakeholder.
    We were invited to do the runway safety thing last year by 
the Administrator. We participated in the meeting the had for 
the one or two days. They subsequently had several panels 
meetings after that original one and we were not invited to 
most of those at all. In fact, I think the comment from the 
Vice President of Terminal, the person that works under the 
Vice President of Terminal was when I want NATCA's opinion and 
input, I will ask for it.
    So that is the kind of attitude that permeates up at 
headquarters, and we are trying to change that, I am trying to 
change that, and we are trying to do that through an agreement 
on how this process is going to work, which has stalled for the 
time being. So, as we are trying to work that nationally, 
locally, they are doing these things all over the place and 
basically ignoring the input of the controller workforce.
    Mr. Cohen. Mr. Krakowski, you know--it was prior to your 
time, but it is apparently happening as well, if in fact what 
Mr. Forrey indicates is true that these meetings are going on 
all over the Country and NATCA's representatives are not 
involved--we have had this problem with NextGen. We had other 
stakeholders saying the GAO has identified that this is a 
problem, we are designing a system, NextGen, that the people 
who are going to have to run the system are not involved with 
input. Hopefully, we have changed that and NATCA has been 
involved in NextGen and some of the decisions.
    In fact, I just read an article yesterday, talking about 
NextGen versus Euro Control, what they are doing in Europe, and 
it said one of the things that some believe that they are ahead 
of us now, and one of the reasons that they point out is 
because they have all the stakeholders involved and all the 
stakeholders, people who are involved the system, who will use 
the system and who will run the system are in fact helping 
design the system. That has been a problem in the past with 
NextGen. I am going to ask the question has that been resolved 
and do we have adequate input from the stakeholders.
    But before I ask that question, tell me about Runway Safety 
Council. Mr. Forrey has indicated NATCA has been involved at 
the national level, but not in these meetings that are going on 
around the Country.
    Mr. Krakowski. Sir, the Runway Safety Council, the actual 
council that we have committed to, is not up and running yet; 
it will be up and running in the next month or two. NATCA will 
be invited as full participating stakeholders in it, that is 
our intention.
    Mr. Cohen. What are these meetings that are going on around 
the Country that Mr. Forrey refers to, then?
    Mr. Krakowski. This was from the Call to Action. These are 
where we went out and surveyed airports to look for markings, 
risks out there, signage, sighting issues, all of that. The 
statistics we have show that about 43 percent of those did have 
direct participation of NATCA people.
    Wes, you have got probably a good feel for this.
    But, in general, we have invited NATCA to all of those with 
the exception of one. In general, if you look at all of the 
activities around runway safety, we can demonstrate NATCA has 
participated in about 25 percent of them. That is not enough, 
in my opinion, so we need to work harder at making that happen.
    Mr. Cohen. And tell me why that is. Why have they only 
participated in 25 percent? Are you saying that they haven't 
been invited in the other 75 percent or they have refused to 
participate?
    Mr. Krakowski. Or scheduling conflicts, things like that. 
It is kind of a mix. I think Wes could probably help us with a 
little bit of data on that.
    I do want to say, though, to one thing Pat said, is we are 
trying to craft that agreement on the safety management working 
group. I believe we are very close. Based on conversations he 
and I had yesterday, we think we can bridge this.
    Mr. Cohen. I am going to give Mr. Forrey an opportunity to 
comment on the other 75 percent, but before I do, let me ask 
you, Mr. Krakowski, on the issue of NextGen and the problem 
that we have had with stakeholders not participating, in 
particular, NATCA. Has that been corrected?
    Mr. Krakowski. Yes. Sir, we have the old OEP, Operational 
Evolutionary Partnership, which is now the NextGen board. I go 
to many of these meetings, and, typically, Pat has one of his 
safety people there all the time, so they are there.
    Mr. Cohen. NextGen, Mr. Forrey?
    Mr. Forrey. NextGen, yes. The only participation we have 
with the FAA with NextGen is the fact that we go to these OEP 
meetings once every week or once every two weeks and hear the 
progress of where they are going. We are not participating in 
any of their workgroups or anything of that nature.
    Mr. Cohen. Is that correct?
    Mr. Krakowski. They are going to at least those meetings.
    Mr. Cohen. But the point that he is making is, you know, we 
can get into a whole other issue here about the reorganization 
of NextGen as well, but that will be for another day. But the 
point is--I mean, let's not kid each other here--either they 
are involved and they are giving input and they are actively 
involved in helping to design the system or they are not.
    Mr. Krakowski. Sir, let's be clear, if we could, about one 
thing. We have controller involvement in all of the critical 
areas where controller involvement is needed. Now, are they 
necessarily representing NATCA's institutional interest? No. 
But that is what we are trying to build back in from the 
vestiges of the labor dispute that has created a separation 
here. That is what I am trying to do, sir.
    Mr. Cohen. Mr. Forrey, I asked you about NextGen and now 
would ask you about the Runway Safety Council.
    Mr. Forrey. The 75 percent that you referred to we are not 
asked. We are asked when the agency finds it convenient to 
bring us onboard, like when they want to split these towers and 
TRACONs, when they want to institute something else that is 
politically a hot potato for them that they want NATCA's 
involvement in. Taking a controller off the floor is not 
serving the interests of what the union does, and that is to 
protect and make sure the systems run safe and efficient and 
the controllers are considered.
    The fact that they are taking someone who essentially would 
say yes or no, whatever the agency tells them to do so they can 
go work this project, is not the kind of person we want 
representing the interests of the workforce. So to say that 
they have controller involvement, they had controller 
involvement when they did ISSS and invest automation system, 
and that was only about a $3 billion or $4 billion waste of 
money.
    So to say they are going to have controller involvement or 
that they have had controller involvement means they have taken 
their people that want to be supervisors or managers, or 
whatever they want to be, their yes men and women, and say, 
okay, we will take to get the controller input. That doesn't 
work for me, it doesn't work for my membership, and it doesn't 
work for the system.
    Mr. Costello. The Chair now recognizes the gentleman from 
New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    Sorry I was double-booked and missed our statements, but I 
have the written statements.
    Mr. Krakowski, you state that the FAA will continue to 
examine the information from the fatigue symposium it hosted to 
determine next steps. What are some of these next steps? Did 
NATCA participate in the fatigue symposium? And maybe Mr. 
Forrey could respond also to that question.
    Mr. Krakowski. Sir, NATCA and all the labor unions--pilots 
unions, flight attendants unions--were at the symposium and it 
was really a good event. One of the takeaways that we had 
looking at it is how controllers are scheduled and, more 
importantly, the time off between shifts that may be kind of 
close together or, after you work a midnight shift, how much 
time do you really need off to be completely refreshed for the 
next shift.
    So all of that is under review by FAA right now and will be 
continuing to hopefully roll out some guidance here in the next 
future. Some of this could potentially create a bargaining 
issue with the union; we don't know yet.
    Mr. Hall. Mr. Forrey?
    Mr. Forrey. Mr. Hall, yes, we did participate in the forum. 
We think it is very important. We have been asking the agency 
to include us and work together with us to build a fatigue 
management system, which includes a lot more than just what 
time you work in between schedules; it includes stuff as 
educating your membership on how to stay rested in between 
shifts, what you can do with scheduling, what you can do with 
on-duty rest periods.
    There are a whole myriad of issues that you have to do or 
have to come up with to formulate a fatigue management system, 
and the agency met with us one time, and that was before this 
seminar. We discussed several different issues that could cause 
fatigue or that would add towards fatigue of a controller 
workforce, which went well beyond just schedules, and that was 
the last we ever met with the FAA. Then they had the fatigue 
symposium and then they briefed information at the fatigue 
symposium that they wouldn't even give us when we met with them 
the first time.
    So we told the FAA--and I have told Hank this personally--
you go do what you want to do; we are going to build our own 
fatigue management system. So we are working with IFATCA, which 
is the International Federation of Air Traffic Controllers, the 
ITF, International Transportation Federation. We are working 
with other countries and other air traffic service providers to 
find out what they are doing and we are going to develop our 
own fatigue management system. We are in the process of doing 
that right now and then we will present it to the FAA and say 
do you want to participate or not.
    Mr. Hall. Thank you.
    Captain Prater, in your testimony, you mentioned the lack 
of adequate weather information as a factor in runway 
incursions. Could you explain that, please?
    Mr. Prater. Certainly, sir. I would tag on to the fatigue 
comments that tired human beings, tired pilots make mistakes, 
and trapping those mistakes is what we try to concentrate on 
right now. Making sure that another pilot or a controller 
catches a mistake to prevent it from becoming a runway 
incursion is one of our focuses.
    We need more information, certainly, about the friction of 
the airport. If there has been rain, freezing precipitation, 
snow, we do not have adequate information on our stopping 
ability on that particular runway, much less we are using an 
ancient system, if you will, of what did the other guy feel, 
what did he report. Well, he may not have touched down in this 
exact same area of the runway that we did. There are vehicles 
out there that can provide us with some information, but they 
are not standard enough. We do need an increase in information 
on what that runway feels like to the airplane itself, how fast 
can we stop.
    Mr. Hall. Thank you.
    Mr. Crites, your testimony states that the perimeter end-
around taxiways result in a two minute per operation time 
reduction savings in Atlanta, $27 million a year, and also that 
there is a significant reduction in emissions from the 
perimeter end-around runway. Would you comment on those 
factors?
    Mr. Crites. Yes, sir. The perimeter taxiways is a system 
solution. There are arrivals, departures, and runway crossings, 
aircraft and vehicles trying to cross a runway, and perimeter 
taxiways addresses all of those. By taking the aircraft that 
are going to cross a runway, you now have a consistent in-trail 
separation for all arrivals and all departures; simplify the 
communication, the complexity of the situation.
    So you may have a longer taxi-in time by having a taxi-
around the end of a runway, but your out-to-off time and your 
airspace time have been reduced. So the net-net is a benefit. 
In our NASA human-in-the-loop simulations, we added roughly two 
minutes and seven seconds on a taxi in, but reduced taxi outs 
by four minutes and 37 seconds, so a net of about 2 minutes and 
21 seconds per operation. That is where we get our figures 
from. It is a great solution.
    Mr. Hall. Thank you very much.
    Since my time is about to expire, I want to ask a parochial 
question of Mr. Krakowski. There was just announced a two hour 
a day reduction in staffing at the Duchess County, ,New York 
airport, which, in a county that is attempting to do economic 
development and to attract more businesses and people who would 
fly in and out from their residences to do business around the 
Country, this is a problem for us that we have heard from our 
community leaders and business leaders, as well as from the 
airport management and pilots and controllers about it, and I 
think it is unfortunately going to have a detrimental effect on 
our ability to use that airport as an attraction for economic 
development in the Hudson Valley.
    Are you familiar with this or could you----
    Mr. Krakowski. I am not, but I would be happy to research 
it and get back to you.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hall. I would appreciate that.
    Thank you very much, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman. Now I 
understand the gentleman from Michigan has one question, Dr. 
Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Relatively brief one.
    Dr. Dillingham, you cited that there are about 957 runway 
incursions. I assume that is for this year?
    Mr. Dillingham. Yes, sir, that is for this year. That 
includes all runway incursions, all severity levels.
    Mr. Ehlers. Okay. Now, my question is how many of those 
would you consider serious or likely to cause accidents and so 
forth, and how many are just a plane wandering off onto a 
runway and then quickly getting off, with no other airplanes in 
sight?
    Mr. Dillingham. Mr. Ehlers, I think the number this year of 
serious ones are 24, but I also want to say that a point that 
we made earlier is that even though the 24 are the more serious 
ones, FAA shouldn't lose sight of the others because they can 
in fact turn into serious ones.
    Mr. Ehlers. Okay. I just wanted to check and get some idea 
what the total number was.
    Mr. Dillingham. Yes, sir.
    Mr. Ehlers. With that, I will yield back. Thank you.
    Mr. Costello. The Chair thanks the gentleman.
    Final question that I have, Dr. Dillingham, on a positive 
note, you indicate that you believe that the FAA and pilots and 
controllers are on the right track to address the problems of 
runway incursions. What would you name as the top three 
priorities going forward from here, what they should be doing?
    Mr. Dillingham. Chairman Costello, I think focusing on what 
has been determined to be the leading causal factors, human 
factors, in fact, is the direction in which FAA and the other 
stakeholders should go, and included in that are the things 
that we have all talked about today: accelerating the 
technology and doing the low-cost things.
    But I would also argue that there should be some focus on 
making sure that all these initiatives that have been started 
or planned, that they actually take place and that FAA follows 
up and takes what information, lessons learned from those and 
folds it back into the process for continued improvement. I 
think look at the factors that are contributing factors: GA 
aircraft are involved in two-thirds of the runway incursions, 
so a focus needs to be there; Pilots are involved in a 
significant number, so the focus needs to be there. So those 
would be the things would be the things that I would suggest, 
Mr. Chairman.
    Mr. Costello. The Chair thanks you.
    Let me just say, as you know, and I think Mr. Krakowski 
indicated, we have provided aggressive oversight, and we are 
going to continue to, not only in runway incursions, but also 
on some of the projects, as was noted today, the FAA has 
started and may not have completed or may not be on track to 
complete. That is one of the responsibilities that this 
Subcommittee takes seriously and we are going to continue to do 
so.
    At this time, the Chair recognizes the distinguished 
Chairman of the Full Committee, Chairman Oberstar.
    Mr. Oberstar. Mr. Chairman, I had indicated earlier I just 
came to listen, but can't participate in an aviation hearing 
without getting something stirred or stimulated. Earlier this 
morning, I participated and spoke to a rail labor management 
conference hosted by the National Mediation Board and talked 
about exactly what Captain Prater referenced and Pat Forrey has 
talked about, that is, fatigue--fatigue of pilots, fatigue of 
air traffic controllers. Fatigue, as Vince Lombardi put it in a 
different context, makes cowards of us all. What he meant by 
that is it takes away our strength, our reserves of energy, our 
alertness, our ability to stay at the top of our game, and that 
is true whether it is you are a locomotive engineer, whether 
you are a captain of a towboat, or driving a truck, managing 
the air traffic controller, route center, the TRACON, or the 
airplane.
    But, separately, over many years we have had hearings on 
runway incursions and, for that reason, I very much appreciate 
Mr. Costello staying on top of the issue and raising the 
visibility level on it and getting all this splendid testimony.
    Aren't there too many vehicles on the runway surface? Mr. 
Forrey?
    Mr. Forrey. There are a lot of vehicles on the runway 
surface, yes, and----
    Mr. Oberstar. I see an increasing number, no matter which 
airport I am at, and I get to a lot of them all over the 
Country, as I know my colleagues do. But there are way too many 
vehicles moving at remarkable speeds, and with no apparent 
traffic direction.
    Mr. Forrey. Well, anyone that gets on the active surface, 
control surface, has to be in contact with the towers. I mean, 
that is there. There are a lot of service vehicles that 
probably in the tarmac areas and by the gates that are driving 
all over the place as well, but on the runways we are in 
contact with those vehicles, just like we are with airplanes.
    Mr. Oberstar. Yes, but how many people does it take in the 
tower to track those vehicles moving on the surface to keep 
them away from this, that, or the other?
    Mr. Forrey. Well, for every vehicle you add, you are adding 
the workload to a controller that has got to separate the 
planes from the service vehicles.
    Mr. Oberstar. Mr. Krakowski, what have you done to take 
notice of this issue and to limit the number or vehicles and to 
manage their movements better?
    Mr. Krakowski. Well, one of the things that I think if you 
look at the Call to Action that we started on runway safety 
beginning last year, we did take a strong emphasis with the 
airports on vehicle training, recurrent training, which was not 
a standard that was being held up at a lot of the airports, to 
make sure that everybody that does drive on the surface of the 
airport knows what the procedures are, knows about calling the 
control tower. I think it was an unfocused effort until then.
    The airports helped us a lot over this past year in getting 
to those communities, and not just the people at the airports, 
but the airlines that have ground staff running around in 
vehicles as well. So the first thing is to make sure people are 
properly trained, certified to operate in that environment, and 
have recurrent training.
    And perhaps our gentleman from Dallas would like to add to 
that.
    Mr. Crites. Certainly. I would just like to echo that, Mr. 
Chairman. Recurrent training, familiarization for all folks out 
there on the airfield. But to your point, trying to keep them 
off the airfield I think is job number one for us.
    Mr. Oberstar. Captain Prater, what do your members say 
about the number of vehicles on the runway?
    Mr. Prater. Well, the number of distractions certainly have 
increased, but I think the runway environment itself, while 
there may be maintenance, whether it is construction crews or 
grass cutting or snow removal crews, I believe that those are 
controlled well by the controllers. As you get closer to the 
ramps, however, you get a lot more equipment being driven by 
people who may be out there without very much training. The 
turnover in many of our ground personnel, because they are no 
longer working for the airlines, they may be contract, the 
turnover is tremendous, so keeping people aware that, you know 
what, you better yield to the big airplane and not cut in front 
of it. We see far too many of those incidents. Fortunately, 
they are usually on the ramp, versus being close to the runway.
    Mr. Oberstar. That ramp area is very congested. Exactly my 
concern.
    Mr. Krakowski, I think that it behooves the FAA to step up 
the effort with airports, one, to limit the number of vehicles, 
especially in the ramp area; two, improve the training and the 
coordination with air traffic control and give us a report in 
another couple months about your progress on that. I have been 
a few places that just really have startled me, and I have 
watched this for 35 years. Twenty-five years I have been doing 
aviation oversight and I see an increased number of vehicles; 
just my visual observation of it, no scientific counting. I 
know when there are too many, and there are too many out there.
    Now, what is happening with the hold short procedure and is 
that contributing, Mr. Forrey, to difficulties? You notice what 
we found some years ago, creep with the aircraft in the hold 
short position.
    Mr. Forrey. I think the hold short position in and of 
itself isn't necessarily, the problem it is the taxying to the 
hold short position that is the problem. The agency has, again, 
unilaterally implemented that we have to start doing 
progressive taxiways. Instead of saying a taxi to runway 27 via 
taxiway Romeo, now they have got to say taxi to runway 27 via 
taxiway Romeo, turn right on taxiway Whiskey, turn left on 
taxiway Tango, hold short of runway.
    So there is added verbiage to this thing that is going on 
now. It is creating more room for error; it has got to be read 
back exactly the way it is, so now you have got congestion tie-
up. It is just a problem. It is something that they didn't ask 
us for our opinion on, they didn't allow us to participate in 
that SMS panel that we were talking about earlier; they just 
did it.
    So it is a problem for us. It is going to create delays in 
the system. It creates an unsafe situation where now there is a 
mis-readback that can happen, more human error can take place. 
It is just that kind of stuff that is a problem. But the actual 
holding short isn't necessarily the issue.
    Mr. Oberstar. Thank you.
    Captain Prater?
    Mr. Prater. I think we need to focus, Mr. Chairman, on the 
fact that we need the same verbiage, whether I am coming from 
Spain or whether I am flying to Spain, whether I am coming from 
Holland or traveling to Holland. The hold short procedures and 
the taxi procedures need to be common across the world. Just 
like English is the common language, we need to bring in our 
standards up to the world ICAO standards. It will take some 
retraining of controllers, of pilots, but I think, overall, 
that would be a step that we could take to improve the system.
    Mr. Oberstar. Mr. Krakowski, can you take action on these 
matters?
    Mr. Krakowski. We already are doing the analysis on the 
ICAO verbiage standards, and we should have that done within 
the next few months so we can actually start working on it. And 
I absolutely agree with Captain Prater. I disagree with Mr. 
Forrey, though, on the detailed----
    Mr. Oberstar. Well, you usually do, don't you?
    [Laughter.]
    Mr. Krakowski. Well, but I come from a position, honestly, 
in my previous employer, it was one of my aircraft that got 
disoriented last year and caused a very serious runway 
incursion. If the pilots had a pathway in their mind on what 
taxiways specifically to get to, we believe that that would 
have mitigated that type of an issue. Another thing that we 
have recently done is we will not allow an aircraft to receive 
its takeoff order until all other runways that it is crossing 
going to that runway have been crossed.
    So we are doing procedural things as we learn through the 
Call to Action that are good practices. They are different. 
They are different for the pilots and they are different for 
the controllers, but we will get used to them. We changed how 
we displayed weather to pilots and we went to the international 
format many, many years ago. Everybody complained about it and 
it was a distraction, but now we have a common worldwide 
system. We are good, we are adaptable. Pilots and controllers 
are good at these sorts of things. So to standardize, to have 
specific instructions we believe is the right way to go.
    Mr. Oberstar. Mr. Chairman, I would recommend, in your 
continuing vigilance, a follow up on this matter of 
standardization and compatibility with ICAO, and I will 
distribute for Subcommittee Members relevant portions of a 
hearing I held 22 years ago on common language in aviation. 
Unfortunately, the text doesn't relate what I said at the 
outset. I repeated a number of commands in the various accents 
that you hear in the flight deck.
    English is indeed the common language of aviation, with a 
French accent, with a German accent, Dutch, who have a 
different accent, and by the time you get through it and then 
you tune in on entering French airspace and every now and then 
there is a pilot talking to the tower in French. He is supposed 
to be speaking in English.
    Last question. What happened to precision runway monitoring 
technology?
    Mr. Krakowski. Sir, we have had it in a couple occasions 
like San Francisco and Minneapolis and in Detroit.
    Mr. Oberstar. Detroit, yes.
    Mr. Krakowski. Right. We use it quite extensively, or I 
should say regularly, in San Francisco, where you have those 
really two close runways. We don't use it quite as often.
    Mr. Oberstar. Has it proven effective in fog?
    Mr. Krakowski. At certain levels of visibility we can use 
it. We can't use it down to the very lowest minimums, 
typically. But I think the answer to that is the work we are 
doing on RNAV and RNP and NextGen all begins to really get at 
that very issue. I think the PRM program is going to be 
obviated by the new technology.
    Mr. Oberstar. That was sort of the prediction for it when 
it came into effect after that tragic accident, the DC-9 on the 
tarmac at Detroit.
    Mr. Forrey, do you and your members have ideas about 
technology improvements that make your workload better and the 
runway area safer?
    Mr. Forrey. Yes, there is a lot of technology that we could 
use. The PRM, by the way, the problem with it mostly is it only 
gives you a little bit more, maybe a couple aircraft more an 
hour, and they don't have the staffing to open the extra 
positions, so that is why it is not used a lot of places. But 
there is a lot of technology in the cockpit. I mean, there is 
ADS-B with in and out, where pilots can actually see the moving 
map of the runways, instead of having to give all kinds of long 
clearances.
    By the way, I would expect that from a pilot, to not agree 
with a controller. Typically, that is the scenario that goes 
these days.
    The problem is I am all for standardizing this stuff in 
phraseology and technology, but why are we going after the rest 
of the world that doesn't work the kind of traffic this Country 
does? You don't have O'Hares and you don't have Kennedys and 
you don't have Newarks and you don't have Miamis and Atlantas 
and Dallases over in Europe. Maybe they have one airport over 
there. So using their standards for our kind of operation isn't 
necessarily the best thing to do.
    But there are all kinds of new technology with the ADS-B or 
ASDE-X, even the light version of it, that we can start putting 
down. The cockpit ADS-B, where pilots can see the moving 
taxiways, where they can see other aircraft on the runways. 
That can come into them as well, so that there is another 
redundant system available so that we can avoid accidents and 
incursions and all sorts of other safety issues. So there is a 
lot of technology that we could using; we would just like to 
get involved to use it.
    Mr. Oberstar. Thank you.
    Thank you, Mr. Chairman. If the Senate had passed our 
House-passed aviation authorization bill, we would be underway 
with funding to advance the state of the art of technology for 
a good many of these systems that we are talking about here. If 
the Senate doesn't act on it by the end of this session, I know 
that Mr. Costello is going to have that bill, have a quick 
review of it in Committee, will have it on the Floor, and we 
will have it through the House before the next administration, 
whichever it is, can screw it up.
    [Laughter.]
    Mr. Costello. Well, Mr. Chairman, thank you. We have had 
discussions about next year, if in fact the Senate does not 
act, and we intend to have the Subcommittee and the Full 
Committee move on the FAA reauthorization as soon as possible 
and very early in the next session if in fact the Senate does 
not act by the end of this session.
    This has been a good hearing. I think we need to continue, 
and will continue, to focus on this issue to make certain.
    I think, Mr. Krakowski, you acknowledge that there was a 
point when the FAA took their eye off the ball, did not fill 
the position as Director, and now that it is filled and has 
been filled, some progress is being made. I would encourage you 
to continue. We have had this discussion before, and I would 
encourage you to continue to involve all of the stakeholders, 
including the controllers, and to make certain that it is not 
only at the national level, but around the Country, as well, as 
these meetings are taking place.
    I made mention of the article that talked about Euro 
Control and NextGen, and about how the stakeholders there are 
actually involved in designing the system and all have a stake 
in it and a voice, and that is what we need to see here, not 
only with NextGen, but runway incursion issues and with the 
Runway Safety Council as well.
    Again, we thank all of you for your testimony today, and 
the Subcommittee stands adjourned.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
